<html>
<title> - A REVIEW OF NUCLEAR SAFETY IN LIGHT OF THE IMPACT OF NATURAL DISASTERS ON JAPANESE NUCLEAR FACILITIES</title>
<body><pre>[Senate Hearing 112-193]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-193
 
A REVIEW OF NUCLEAR SAFETY IN LIGHT OF THE IMPACT OF NATURAL DISASTERS 
                     ON JAPANESE NUCLEAR FACILITIES

=======================================================================



                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                     MARCH 30, 2011--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations



                  U.S. GOVERNMENT PRINTING OFFICE
67-764                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                               __________
                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas
PATTY MURRAY, Washington             LAMAR ALEXANDER, Tennessee
DIANNE FEINSTEIN, California         SUSAN COLLINS, Maine
RICHARD J. DURBIN, Illinois          LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            LINDSEY GRAHAM, South Carolina
MARY L. LANDRIEU, Louisiana          MARK KIRK, Illinois
JACK REED, Rhode Island              DANIEL COATS, Indiana
FRANK R. LAUTENBERG, New Jersey      ROY BLUNT, Missouri
BEN NELSON, Nebraska                 JERRY MORAN, Kansas
MARK PRYOR, Arkansas                 JOHN HOEVEN, North Dakota
JON TESTER, Montana                  RON JOHNSON, Wisconsin
SHERROD BROWN, Ohio

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

              Subcommittee on Energy and Water Development

                 DIANNE FEINSTEIN, California, Chairman
PATTY MURRAY, Washington             LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            THAD COCHRAN, Mississippi
MARY L. LANDRIEU, Louisiana          MITCH McCONNELL, Kentucky
JACK REED, Rhode Island              KAY BAILEY HUTCHISON, Texas
FRANK R. LAUTENBERG, New Jersey      RICHARD C. SHELBY, Alabama
TOM HARKIN, Iowa                     SUSAN COLLINS, Maine
JON TESTER, Montana                  LISA MURKOWSKI, Alaska
RICHARD J. DURBIN, Illinois          LINDSEY GRAHAM, South Carolina
DANIEL K. INOUYE, Hawaii (ex 
    officio)

                           Professional Staff

                               Doug Clapp
                             Roger Cockrell
                            Leland Cogliani
                    Carolyn E. Apostolou (Minority)
                         Tyler Owens (Minority)
                          Tom Craig (Minority)
                       LaShawnda Smith (Minority)

                         Administrative Support

                          Molly Barackman-Eder 


                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Dianne Feinstein....................     1
Opening Statement of Senator Lamar Alexander.....................     3
Statement of Senator Frank R. Lautenberg.........................     5
Statement of Hon. Gregory B. Jaczko, Chairman, Nuclear Regulatory 
  Commission.....................................................     5
    Prepared Statement of........................................     8
Statement of Dr. Peter B. Lyons, Acting Assistant Secretary for 
  Nuclear Energy, Department of Energy...........................    11
    Prepared Statement of........................................    13
Statement of Dr. Ernest J. Moniz, Professor of Physics, 
  Massachusetts Institute of Technology..........................    28
    Prepared Statement of........................................    29
Fukushima and Directions for U.S. Nuclear Power..................    29
Cost.............................................................    30
Relicensing......................................................    31
Spent-fuel Management............................................    32
Statement of William Levis, President and Chief Operating 
  Officer, PSEG Power............................................    33
    Prepared Statement of........................................    35
U.S. Nuclear Powerplants Are Safe................................    36
Safety is the U.S. Nuclear Energy Industry's Top Priority........    36
The U.S. Nuclear Energy Industry Has a Long History of Continuous 
  Learning.......................................................    37
The U.S. Nuclear Energy Industry Has Already Taken Steps in 
  Response to Fukushima..........................................    38
Statement of David Lochbaum, Director, Nuclear Safety Project 
  Union of Concerned Scientists..................................    39
    Prepared Statement of........................................    41
Why Fukushima Made Me Stop Worrying and Love Nuclear Power.......    49
Additional Committee Questions...................................    50
Questions Submitted to Dr. Peter B. Lyons........................    50
Questions Submitted by Senator Mary L. Landrieu..................    50


A REVIEW OF NUCLEAR SAFETY IN LIGHT OF THE IMPACT OF NATURAL DISASTERS 
                     ON JAPANESE NUCLEAR FACILITIES

                              ----------                              


                       WEDNESDAY, MARCH 30, 2011

                               U.S. Senate,
      Subcommittee on Energy and Water Development,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:02 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Lautenberg, Durbin, Alexander, 
and Graham.


             opening statement of senator dianne feinstein


    Senator Feinstein. Good morning ladies and gentlemen. And 
welcome to the Energy and Water Appropriations Subcommittee's 
Oversight Hearing of U.S. Nuclear Power Safety in the aftermath 
of the Japanese nuclear disaster.
    First, let me say, on behalf of the subcommittee, that our 
thoughts are with the people of Japan who continue to suffer. I 
spoke to Ambassador Fujisaki Saturday and conveyed my really 
deep sympathy. I think for all of us who have been watching 
this on television, day after day and through the horrors of 
both the earthquake and the tsunami that we want to extend our 
very best to the people of Japan and our deepest sympathy for 
what is an enormous loss.
    The 9.0 earthquake and resulting tsunami occurred 19 days 
ago. As we speak, workers at the Daiichi nuclear site continue 
their work to contain the situation with the reactors and 
spent-fuel pools. They have been called national heroes and so 
they should be.
    It will be months before we know what happened and why. So 
it is too early to call this a hearing about lessons learned 
from the disaster in Japan. But we do know enough to start 
asking some critical questions about nuclear energy policy in 
our own country.
    Last week I visited California's two nuclear power plants 
with representatives from the United States Geological Survey 
and the Nuclear Regulatory Commission (NRC). The Diablo Canyon 
Nuclear Power Plant is near the city of San Luis Obispo, it is 
one of the largest employers in the county. Four hundred and 
twenty-four thousand people live within 50 miles. It employs 
1,200 people. Further south, nearly 7.4 million people live 
within 50 miles of the San Onofre Nuclear Generating Station 
near San Clemente.
    I came away from those visits with some good news. I feel 
much better about the safety precautions that are in place at 
these nuclear plants. I was very impressed with the dedication, 
the confidence and the professionalism of the large staffs that 
run these facilities and the regulatory agents who guard 
against risk.
    But we need to reconfirm that these facilities are designed 
to endure the threats we can foresee and prepared to respond to 
scenarios we never imagined, that's why redundant systems, back 
up systems and plans are so important.
    Most significantly, I truly believe we must begin to 
rethink how we manage spent fuel. Spent fuel must remain in 
pools, and those are the pools that the firemen are pouring 
water into in Japan, for at least 5 to 7 years at which time 
these rods can be moved to safer, dry cask storage. However, 
these pools often become de facto long-term storage, with fuel 
assemblies re-racked, thus increasing the heat load of the 
pools. In California, for instance, fuel removed from reactors 
in 1984 is still cooling in wet, spent-fuel pools.
    This process may have regulatory approval, but I have a 
hard time understanding why the NRC has not mandated a more 
rapid transfer of spent fuel to dry casks. Reports out of Japan 
indicate there were no problems with the dry casks at Daiichi. 
To me, that suggests that we should at least consider a policy 
that would encourage quicker movement of spent fuel to dry cask 
storage.
    We must also consider what broader regulatory reforms may 
be necessary, beginning with the review of the United States 
power plant safety. I am very pleased that the NRC will 
undertake both short term and long-term reviews of nuclear 
plant safety. Chairmain Jaczko, I thank you very much for that. 
This kind of self-reassessment is really appropriate. Today, I 
hope we will get a more complete picture of what the NRC 
intends to do with these reviews and how quickly you are likely 
to act on any new safety regulations.
    In addition to NRC's self-assessment, I think we should 
take a look at some independent analysis of our nuclear power 
plant safety, with specific attention to threat assessment and 
the design parameters of our plants.
    Japan has now suffered two earthquakes in the past 4 years 
that were larger than the Japanese thought possible and each 
devastated a nuclear power plant that was not designed to 
endure a quake of that size. The lesson is that we need to 
think carefully about whether our country has properly 
estimated the threats to our nuclear facilities and designed 
the facilities to endure them. An independent review of the 
design basis for all U.S. plants, I believe, should be a 
priority.
    The nuclear R&D program currently funds work related to 
existing plants, future reactor designs and waste issues. The 
question becomes: Do we have the right focus and balance to 
promote increased safety?
    The spent fuel at Daiichi posed a significant problem, 
contributing to at least one of the hydrogen explosions. So, 
what can our R&D programs do to address issues of remaining 
spent-fuel energy and hydrogen?
    Funding constraints are already requiring programs to 
rerank R&D priorities. Perhaps the events at Daiichi will also 
contribute to that rethink.
    It is clear that we lack a comprehensive national policy to 
address the nuclear fuel cycle, including management of nuclear 
waste. Creating more waste without a plan increases our risk 
and exposes taxpayers to more payments from utilities.
    This hearing is not focused on nuclear waste, but I think 
it is hard to look at the other aspects of nuclear power and 
not recognize our lack of appropriate, permanent, retrievable 
storage.
    So, we will be exploring these issues today. On our first 
panel, we will hear from Greg Jaczko, the chairman of the NRC. 
I have had the pleasure of meeting with him and look forward to 
his testimony. We will also hear from Pete Lyons, the Acting 
Assistant Secretary for Nuclear Energy at the Department of 
Energy (DOE).
    Our second panel will include Dr. Ernie Moniz from the 
Massachusetts Institute of Technology (MIT) who has a long 
history in this area and is currently serving on the Blue 
Ribbon Commission developing a long-term plan for nuclear 
waste. We will also hear from William Levis, the president and 
chief operating officer at PSEG Power. PSEG operates the same 
reactor model as those at the Daiichi site. Our third witness 
on the panel is Dave Lochbaum from the Union of Concerned 
Scientists. Mr. Lochbaum has a long history inside and outside 
the nuclear power industry. So we look forward to your 
testimony.
    Let me now turn to my distinguished ranking member, with 
whom it's a great pleasure to work. We have actually worked 
together in the prior session on the Interior, Environment, and 
Related Agencies Subcommittee. And I think this is our first 
hearing on this subcommittee.
    So, I want you to know I very much look forward to working 
with you in the same way we did on Interior.


              opening statement of senator lamar alexander


    Senator Alexander. Thank you, Madam Chairman. Thank you for 
that and thank you for hosting this hearing in a timely way and 
having the witnesses here whom we ought to be hearing from--
people who know what they are talking about and are in charge 
of the safety and usefulness of our nuclear program.
    Those of us who support nuclear power as a part of the mix 
of electricity generation in the United States, and for the 
world, ought to be among the first to ask questions about what 
can we learn from what happened in Japan, about the safety of 
our own reactors: the 104 commercial reactors that we have in 
the United States; those that are on the drawing board at the 
NRC; and the large number of nuclear reactors in our nuclear 
Navy which have been operating since the 1950s.
    The questions I will be looking forward to hearing more 
about are similar to those that Senator Feinstein mentioned. 
What kind of safety enhancements have been made at our current 
nuclear plants since they have been in operation? How will the 
safety capabilities of the next generation of reactors improve 
over reactors that are in service not just in the United 
States, but around the world today? What about new 
technologies? One of the most important things that the Federal 
Government can do about clean energy is research. We have the 
capacity for that.
    I was in Great Britain for 3 days last week and they 
reminded me that we are the ones with the national labs; we are 
the ones with the great research universities. And if any 
country is going to have advanced research in clean energy, it 
ought to be the United States. We could do that for ourselves 
and for the world. And nuclear power is one area where we could 
do that.
    The chairman has mentioned one area of advanced research, 
which is improving the way we recycle used nuclear fuel. 
Another would be research on small modular reactors (SMR). Can 
we build 125 megawatt reactors or smaller reactors as a part of 
our future? So those are the kinds of questions that I will be 
looking for in this hearing.
    I thank the chairman for reminding us of the scope of the 
Japanese tragedy. It is important to put the entire event in 
perspective in several ways. One way is to look at the size of 
the quake and the size of the tsunami and the size of the 
tragedy. There are hundreds of thousands of people, for 
example, still homeless in Japan. And just like California, by 
its proximity to the Pacific Ocean, Tennessee has an unusual 
relationship with the people of Japan because over the years we 
have become the State with the most Japanese manufacturing, and 
we are home to many Japanese families and friends, so we have 
felt this tragedy even more than we might otherwise have.
    Another way to put this tragedy into perspective is to be 
aware of the record of safety in the United States' nuclear 
industry. The only deaths we have ever had in connection with 
reactors in the United States happened in 1961 at a research 
reactor, and that that kind of reactor isn't used anymore in 
our country. The 104 civilian reactors we have in the United 
States have never produced a fatality. The Navy ships that have 
been powered by nuclear reactors since the 1950s have never 
resulted in a fatality from a reactor accident.
    And while we have heard a lot of comparisons with Three 
Mile Island--the worst nuclear accident we have had in our 
country, I suppose--no one was injured as a result, which many 
people don't believe when I say it.
    So the nuclear industry has a safety record in the United 
States that is not surpassed by any other form of energy 
production. We unfortunately have coal mines that blow up, gas 
plants that blow up, and oil rigs that spill, all of which are 
tragedies and we hope that we continue a good safety record in 
our nuclear plants.
    I think it is also important to keep in perspective what 
our alternatives to nuclear energy are. Every form of energy we 
have carries with it some risk. Again, in listening to those 
talking in Great Britain this past week, they are going through 
the same sort of analysis. But they have few alternatives. 
Forty-five percent of their electricity comes from natural gas, 
which costs twice as much as ours does. One-half of their 
supply comes from Russia, and they are not sure that they want 
to increase that to 80 percent. They are closing their coal 
plants because of their climate change rules. And they know 
that renewables can only provide a fraction of intermittent 
electricity which takes up a lot of space for an island that 
doesn't have very much space. So their only option is to build 
more nuclear power plants, which is what Great Britain is 
planning to do.
    And as we look around the world, we see that nuclear power 
provides 15 percent of the world's electricity, including 30 
percent of Japan's electricity. There are 65 reactors currently 
under construction worldwide, from Russia and China, to Brazil 
and Korea; 20 percent of our electricity in the United States 
comes from nuclear power; 70 percent of our clean electricity--
that is sulfur, nitrogen, mercury, and carbon-free--comes from 
nuclear power. So it is hard for me to imagine how we have a 
future in the United States without substantial expansion of 
nuclear power, especially since some coal plants are going to 
close and some nuclear power plants are going to close because 
they are old.
    So that makes this hearing on what we can learn about 
safety even more important. I thank the chairman for holding 
the hearing and I look forward to the testimony of the 
witnesses.
    Senator Feinstein. Thank you very much, Senator, for those 
excellent comments.
    Senator Lautenberg, welcome. Would you like to make a brief 
statement?


                statement of senator frank r. lautenberg


    Senator Lautenberg. Yes. I'd like to make a longer one, but 
I will make this brief, I think. Just to say, Madam Chairman, 
this not only obviously is timely, but we are pleased to have 
Mr. Jaczko here. I had the chance to meet with him yesterday 
and I think we--the review we had was very productive and I 
was--I will also attest to Mr. Jaczko's durability, not only 
his engineering skill, because he came in from Japan and I 
was--had to speak coming from New Jersey, so we welcome you 
here again, to both witnesses. And I look forward to hearing 
from them. And I thank you, Madam Chairman for having the 
hearing.
    Senator Feinstein. Thank you very much, Senator.
    Chairman Jaczko and Dr. Lyons, thank you both for being 
here today, you have both been intimately involved with the 
crisis and as Senator Lautenberg said, I understand you just 
returned, Mr. Chairman, from Japan, so we would be most 
interested in your observations and update on that situation. 
But, I also want you to be looking forward and talk a little 
bit about the issues the United States should consider in 
learning from this event.
    Your formal statements, gentlemen, will be made part of the 
record, so please summarize, in your oral statement.
    Mr. Chairman, we will begin with you.
STATEMENT OF HON. GREGORY B. JACZKO, CHAIRMAN, NUCLEAR 
            REGULATORY COMMISSION
    Mr. Jaczko. Thank you, Chairman Feinstein, Ranking Member 
Alexander and Senator Lautenberg.
    I appreciate the opportunity to appear before your 
subcommittee today to address the response of the NRC to these 
tragic events that you have discussed, in Japan. And as you 
have mentioned, I traveled to Japan over the past weekend and 
just returned yesterday. And I want to be able to directly 
convey a message of support to our Japanese counterparts. And I 
had an opportunity to meet with senior Japanese Government and 
TECPO officials and I consulted with the NRC team of experts 
who are in Japan as part of our effort to assist the Japanese 
response to dealing with the nuclear reactors. And I would note 
that that is one small part of a broader United States effort 
to provide assistance to the Japanese with regard to all of the 
challenges they are facing as a result of this hurricane and 
tsunami.
    And as many of you have mentioned, I too would like to 
reiterate my condolences and sympathy to all of those who have 
been affected by the earthquake and the tsunami in Japan. Our 
hearts go out to all of those who have been dealing with the 
aftermath of these natural disasters and we are mindful of the 
long and difficult road they will face in recovering.
    Since Friday, March 11, when the earthquake and tsunami 
struck, the NRC's headquarters operation center has been 
operating on a 24-hour basis to monitor and analyze events at 
nuclear power plants in Japan. Despite the very high level of 
support being provided by our agency in response to those 
events, we do continue to remain focused on our domestic 
responsibilities and ultimately ensuring the safety and 
security of the U.S. nuclear reactors.
    In spite of the evolving situation, the long hours and the 
intensity of efforts, the NRC staff has approached their 
responsibilities with dedication, determination, and 
professionalism and I am very proud of the work that they have 
done and the work that they have done as part of a larger U.S. 
Government effort.
    On March 11, as you have mentioned, an earthquake hit Japan 
resulting in the shutdown of more than 10 reactors in Japan. 
The tsunami that followed appears to have caused the loss of 
normal and emergency electric power to six units at the 
Fukushima Daiichi site. After this event we began interacting 
our Japanese regulatory counterparts and by the following 
Monday we had dispatched a total of 11 NRC staff to Japan.
    Now, as our discussion and understanding of the events 
continued to unfold, at a certain point we gained a limited 
amount of information that led us to believe that there was a 
possibility of a further degradation in the conditions at the 
reactor. Based on the information that we had, we looked at 
that situation, relative to what we would do here in the United 
States and we determined that if a similar situation were to 
happen in the United States, we would be recommending a larger 
evacuation out to approximately 50 miles. And I would stress 
that that was based on limited information and was a 
conservative and prudent decision that was made. So based on 
that information we provided a recommendation to the United 
States Government and the ambassador in Japan issued a notice 
to American citizens in Japan to be advised to evacuate or to 
relocate to 50 miles beyond the plant.
    Here, domestically, we continue to support efforts to 
monitor at nuclear power plants and through the Environmental 
Protection Agency's system, we continue to monitor radiation 
levels that would be seen in the United States. And I want to 
stress and repeat that we do not believe that there is any 
likelihood of levels of radiation in the United States that 
could cause any kind of public health and safety concern.
    Now I want to focus a little bit, with the remainder of my 
opening remarks, on the reasons we believe we have a strong 
regulatory program here in the United States. Since the 
beginning of our regulatory program we have emphasized the 
philosophy of defense in depth which recognizes that nuclear 
reactors require the highest standards of design, construction, 
oversight, and operation. And it really does not rely on any 
one single layer of protection for public health and safety. 
Designs for every reactor in this country take into account 
site specific factors and include a detailed evaluation for 
natural events, such as earthquakes, tornados, hurricanes, 
floods, and tsunamis. There are multiple physical barriers to 
radiation being released to the public in every reactor design. 
And additionally, there are diverse and redundant safety 
systems that are required to be maintained in operable 
condition and frequently tested to ensure that the plant is 
always in a high condition of readiness.
    We are, however, a learning organization and we continue to 
take advantage of the best-available information that we have 
to refine and improve our system. And one of the most 
significant changes that we made, after Three Mile Island in 
1979, was an expansion of our resident inspector program, which 
now has at least two full-time NRC inspectors at each site 
where we have the ability to have unfettered access to the site 
at any time.
    We have also developed guidelines for severe accident 
management to ensure that in the event, all of the things that 
we think are possible to happen, if the event--if something 
like--if something additionally were to happen, we have these 
severe accident management guidelines in place to ensure that 
we can deal promptly and in a systematic and methodical way 
with the unique safety challenges that may be presented.
    In addition, as a result of the events of September 11, we 
identified important pieces of equipment that we require 
licensees to have available and in place, as well as new 
procedures and policies to help deal with the very severe type 
of situation that you are seeing in Japan right now. And our 
program of continuous improvement will also include lessons 
learned from the events in Japan.
    We have already begun enhancing inspection activities 
through temporary instructions to our inspection staff, 
including the resident inspectors and the inspectors in all of 
our four regional offices. We have also issued an information 
notice to licensees to make them aware of activities they 
should undertake to verify that their capabilities to mitigate 
conditions due to these severe types of accidents, including 
the loss of significant operational and safety systems, are in 
effect and operation.
    Now, although we are confident about the safety of United 
States nuclear power plants, our agency has a responsibility to 
the American people to undertake a systematic and methodical 
review in light of the events in Japan. On March 21, the NRC 
established a senior level task force to conduct a 
comprehensive review of our processes and regulations to 
determine whether improvements to our regulatory system are 
needed and to make recommendations to the NRC for its policy 
direction. This will--the review will basically encompass two 
pieces, there will be a short and then ultimately a longer-term 
review that will incorporate the best-available information 
that we have from Japan. And both of these reports will 
ultimately be made available to the public.
    So in summary, I believe we have a strong regulatory 
program in place that looks at a wide variety of severe 
physical and natural phenomenon. In addition to that, we have a 
program in place to account for the things that we may not know 
today. And ultimately we have required all our plants to have 
equipment and procedures in place to deal with these very 
severe types of accident scenarios, in the very unlikely event 
that we were to see something like this develop here in the 
United States.


                           prepared statement


    So I thank you for the opportunity to appear before you and 
I would be happy to answer any questions you may have. Thank 
you.
    [The statement follows:]
                Prepared Statement of Gregory B. Jaczko
    Chairman Feinstein, Ranking Member Alexander, and members of the 
subcommittee, I appreciate the opportunity to appear before you to 
address the response of the United States Nuclear Regulatory Commission 
(NRC) to the recent tragic events in Japan. People across the country 
and around the world who have been touched by the magnitude and scale 
of this disaster are closely following the events in Japan and the 
repercussions in this country and in other countries.
    I traveled to Japan over the past weekend, and just returned 
yesterday. I wanted to convey a message of support and cooperation to 
our Japanese counterparts there and to assess the current situation. I 
also met with senior Japanese Government and TEPCO officials, and 
consulted with our NRC team of experts who are in Japan as part of our 
assistance effort.
    I would first like to reiterate my condolences to all those who 
have been affected by the earthquake and tsunami in Japan. Our hearts 
go out to all who have been dealing with the aftermath of these natural 
disasters, and we are mindful of the long and difficult road they will 
face in recovering. We know that the people of Japan are resilient and 
strong, and we have every confidence that they will come through this 
horrific time and move forward, with resolve, to rebuild their vibrant 
country. Our agency stands together with the people of Japan at this 
most difficult and challenging time.
    The NRC is an independent agency, with approximately 4,000 staff. 
We play a critically important role in protecting the American people 
and the environment. Our agency sets the rules by which commercial 
nuclear power plants operate, and nuclear materials are used in 
thousands of academic, medical, and industrial settings in the United 
States. We have at least two resident inspectors who work full-time at 
every nuclear plant in the country, and we are proud to have world-
class scientists, engineers, and professionals representing nearly 
every discipline.
    Since Friday, March 11, when the earthquake and tsunami struck, the 
NRC's headquarters 24-hour emergency operations center has been fully 
activated, with staffing augmented to monitor and analyze events at 
nuclear power plants in Japan. At the request of the Japanese 
Government, and through the United States Agency for International 
Development, the NRC sent a team of its technical experts to provide 
on-the-ground support, and we have been in continual contact with them. 
Within the United States, the NRC has been working closely with other 
Federal agencies as part of our Government's response to the situation.
    During these past several weeks, our staff has remained focused on 
our essential safety and security mission. I want to recognize their 
tireless efforts and their critical contributions to the United States 
response to assist Japan. In spite of the evolving situation, the long 
hours, and the intensity of efforts over the past week, NRC staff has 
approached their responsibilities with dedication, determination and 
professionalism, and I am incredibly proud of their efforts. The 
American people also can be proud of the commitment and dedication 
within the Federal workforce, which is exemplified by our staff every 
day.
    The NRC's primary responsibility is to ensure the adequate 
protection of the public health and safety of the American people. 
Toward that end, we have been very closely monitoring the activities in 
Japan and reviewing all currently available information. Review of this 
information, combined with our ongoing inspection and licensing 
oversight, gives us confidence that the U.S. plants continue to operate 
safely. To date, there has been no reduction in the licensing or 
oversight function of the NRC as it relates to any of the U.S. 
licensees.
    Our agency has a long history of conservative regulatory 
decisionmaking. We have been intelligently using risk insights to help 
inform our regulatory process, and, for more than 35 years of civilian 
nuclear power in this country, we have never stopped requiring 
improvements to plant designs, and modifying our regulatory framework 
as we learn from operating experience.
    Despite the very high level of support being provided by the NRC in 
response to the events in Japan, we continue to remain focused on our 
domestic responsibilities.
    I'd like to begin with a brief overview of our immediate and 
continuing response to the events in Japan. I then want to further 
discuss the reasons for our continuing confidence in the safety of the 
U.S. commercial nuclear reactor fleet, and the path forward for the NRC 
in order to learn all the lessons we can, in light of these events.
    On Friday, March 11, an earthquake hit Japan, resulting in the 
shutdown of more than 10 reactors. The ensuing tsunami appears to have 
caused the loss of normal and emergency alternating current power to 
the six unit Fukushima Daiichi site. It is those six units that have 
received the majority of our attention since that time. Units 1, 2, and 
3 were in operation at the time of the earthquake. Units 4, 5, and 6 
were in previously scheduled outages.
    Shortly after 4 a.m. EDT on Friday, March 11, the NRC Emergency 
Operations Center made the first call, informing NRC management of the 
earthquake and the potential impact on U.S. plants. We went into the 
monitoring mode at our Emergency Operations Center, and the NRC's first 
concern was possible impacts of the tsunami on U.S. plants and 
radioactive materials on the West Coast, and in Hawaii, Alaska, and 
U.S. territories in the Pacific. We were in communication with 
licensees and NRC resident inspectors at Diablo Canyon Power Plant and 
San Onofre Nuclear Generating Station in California, and the radiation 
control program directors for California, Washington, Oregon, and 
Hawaii.
    On that same day, we began interactions with our Japanese 
regulatory counterparts and dispatched two experts to Japan to help at 
the United States Embassy in Tokyo. By Monday, March 14, we had 
dispatched a total of 11 NRC staff to provide technical support to the 
American Embassy and the Japanese Government. We have subsequently 
rotated in additional staff to continue our on-the-ground assistance in 
Japan. The areas of focus for this team are:
  --to assist the Japanese Government and respond to requests from our 
        Japanese regulatory counterparts; and
  --to support the U.S. Ambassador and the U.S. Government assistance 
        effort.
    On Wednesday, March 16, we collaborated with other U.S. Government 
agencies and decided to advise American citizens to evacuate within a 
50-mile range around the plant. This decision was a prudent course of 
action and would be consistent with what we would do under similar 
circumstances in the United States. This evacuation range was 
predicated on a combination of the information that we had available at 
the time, which indicated the possibility that reactor cores and spent-
fuel pools may have been compromised, and hypothetical calculations of 
the approximate activity available for release from one reactor and two 
spent-fuel pools at a four-reactor site.
    We have an extensive range of stakeholders with whom we have 
ongoing interaction regarding the Japan situation, including the White 
House, congressional staff, our State regulatory counterparts, a number 
of other Federal agencies, and international regulatory bodies around 
the world.
    The NRC response in Japan and our emergency operations center 
continue with the dedicated efforts of more than 250 NRC staff on a 
rotating basis. The entire agency is coordinating and working together 
in response to this event so that we can provide assistance to Japan 
while continuing the vital activities necessary to fulfill our domestic 
responsibilities.
    It is important to note that the U.S. Government has an extensive 
network of radiation monitors across this country. Monitoring at 
nuclear power plants and the U.S. Environmental Protection Agency's 
system has not identified any radiation levels that effect public 
health and safety in this country. In fact, natural background 
radiation from sources such as rocks, the Sun, and buildings, is 
100,000 times more than doses attributed to any level that has been 
detected in the United States to date. Therefore, based on current 
data, we feel confident that there is no reason for concern in the 
United States regarding radioactive releases from Japan.
    There are many factors that assure us of ongoing domestic reactor 
safety. We have, since the beginning of the regulatory program in the 
United States, used a philosophy of ``Defense-in-Depth'', which 
recognizes that nuclear reactors require the highest standards of 
design, construction, oversight, and operation, and does not rely on 
any single layer of protection for public health and safety. Designs 
for every individual reactor in this country take into account site-
specific factors and include a detailed evaluation for natural events, 
such as earthquakes, tornadoes, hurricanes, floods, and tsunamis, as 
they relate to that site.
    There are multiple physical barriers to radiation in every reactor 
design. Additionally, there are both diverse and redundant safety 
systems that are required to be maintained in operable condition and 
frequently tested to ensure that the plant is in a high condition of 
readiness to respond to any situation.
    We have taken advantage of the lessons learned from previous 
operating experience to implement a program of continuous improvement 
for the U.S. reactor fleet. We have learned from experience across a 
wide range of situations, including most significantly, the Three Mile 
Island accident in 1979. As a result of those lessons learned, we have 
significantly revised emergency planning requirements and emergency 
operating procedures. We have addressed many human factors issues 
regarding how control room employees operate the plant, added new 
requirements for hydrogen control to help prevent explosions inside of 
containment, and created requirements for enhanced control room 
displays of the status of pumps and valves.
    The NRC has a post-accident sampling system that enables the 
monitoring of radioactive material release and possible fuel 
degradation. One of the most significant changes after Three Mile 
Island was an expansion of the Resident Inspector Program, which now 
has at least two full-time NRC inspectors onsite at each nuclear power 
plant. These inspectors have unfettered access to all licensees' 
activities related to nuclear safety and security.
    As a result of operating experience and ongoing research programs, 
we have developed requirements for severe accident management 
guidelines. These are components and procedures developed to ensure 
that, in the event all of the above-described precautions failed and a 
severe accident occurred, the plant would still protect public health 
and safety. The requirements for severe accident management have been 
in effect for many years and are frequently evaluated by the NRC 
inspection program.
    As a result of the events of September 11, 2001, we identified 
important pieces of equipment that, regardless of the cause of a 
significant fire or explosion at a plant, the NRC requires licensees to 
have available and staged in advance, as well as new procedures and 
policies to help deal with a severe situation.
    Our program of continuous improvement, based on operating 
experience, will now include evaluation of the significant events in 
Japan and what we can learn from them. We already have begun enhancing 
inspection activities through temporary instructions to our inspection 
staff, including the resident inspectors and the region-based 
inspectors in our four regional offices, to look at licensees' 
readiness to deal with both design-basis accidents and beyond-design-
basis accidents.
    We have also issued an information notice to licensees to make them 
aware of the events in Japan, and the kinds of activities we believe 
they should be engaged in to verify their readiness. It is expected 
that licensees review the information related to their capabilities to 
mitigate conditions that result from severe accidents, including the 
loss of significant operational and safety systems, to ensure that they 
are in effect and operational.
    During the past 20 years, there have been a number of new 
rulemakings that have enhanced the domestic fleet's preparedness 
against some of the problems we are seeing in Japan. The ``station 
blackout'' rule requires every plant in this country to analyze what 
the plant response would be if it were to lose all alternating current 
so that it could respond using batteries for a period of time, and then 
have procedures in place to restore alternating current to the site and 
provide cooling to the core.
    The hydrogen rule requires modifications to reduce the impacts of 
hydrogen generated for beyond-design-basis events and core damage. 
There are equipment qualification rules that require equipment, 
including pumps and valves, to remain operable under the kinds of 
environmental temperature and radiation conditions that you would see 
under a design-basis accident.
    With regard to the type of containment design used by the most 
heavily damaged plants in Japan, the NRC has had a Boiling Water 
Reactor Mark I Containment Improvement Program since the late 1980s. 
This program required installation of hardened vent systems for 
containment pressure relief, as well as enhanced reliability of the 
automatic depressurization system.
    A final factor that underpins our belief in the ongoing safety of 
the U.S. fleet is the emergency preparedness and planning requirements 
in place that provide ongoing training, testing, and evaluations of 
licensees' emergency preparedness programs. In coordination with our 
Federal partner, the Federal Emergency Management Administration, these 
activities include extensive interaction with State and local 
governments, as those programs are evaluated and tested on a periodic 
basis.
    Along with our confidence in the safety of United States nuclear 
power plants, our agency has a responsibility to the American people to 
undertake a systematic and methodical review of the safety of our 
domestic facilities, in light of the natural disaster and the resulting 
nuclear situation in Japan.
    Examining all available information is an essential part of the 
effort to analyze the event and understand its impact on Japan and its 
implications for the United States. Our focus is always on keeping 
nuclear plants and radioactive materials in this country safe and 
secure.
    On Monday, March 21, my colleagues at the NRC and I met to review 
the status of the situation in Japan and identify the steps needed to 
conduct that review. We consequently decided to establish a senior 
level agency task force to conduct a comprehensive review of our 
processes and regulations to determine whether the agency should make 
additional improvements to our regulatory system, and to make 
recommendations to the NRC for its policy direction.
    The review will be conducted in both a short-term and a longer-term 
timeframe. The short-term review has already begun, and the task force 
will brief the NRC at 30-, 60-, and 90-day intervals, to identify 
potential or preliminary near-term operational or regulatory issues. 
The task force then will undertake a longer-term review as soon as NRC 
has sufficient information from the events in Japan. That longer-term 
review will be completed in 6 months from the beginning of the 
evaluation.
    The task force will evaluate all technical and policy issues 
related to the event to identify additional potential research, generic 
issues, changes to the reactor oversight process, rulemakings, and 
adjustments to the regulatory framework that may warrant action by the 
NRC. We also expect to evaluate potential interagency issues, such as 
emergency preparedness, and examine the applicability of any lessons 
learned to nonoperating reactors and materials licensees. We expect to 
seek input from all key stakeholders during this process. A report with 
appropriate recommendations will be provided to the NRC within 6 months 
of the start of this evaluation. Both the 90-day and final reports will 
be made publicly available.
    In conclusion, I want to reiterate that we continue to make our 
domestic responsibilities for licensing and oversight of the U.S. 
licensees our top priority and that the U.S. plants continue to operate 
safely. In light of the events in Japan, there will be a near-term 
evaluation of their relevance to the United States fleet, and we are 
continuing to gather the information necessary to take a longer, more 
comprehensive and thorough look at the events in Japan and their 
lessons for us. Based on these efforts, we will take all appropriate 
actions necessary to ensure the continuing safety of the American 
people.
    Chairman Feinstein, Ranking Member Alexander, and members of the 
subcommittee, on behalf of the NRC, thank you for the opportunity to 
appear before you. I look forward to continuing to work with you to 
advance the NRC's important safety mission.

    Senator Feinstein. Thanks very much, Mr. Chairman.
    Secretary Lyons.
STATEMENT OF DR. PETER B. LYONS, ACTING ASSISTANT 
            SECRETARY FOR NUCLEAR ENERGY, DEPARTMENT OF 
            ENERGY
    Mr. Lyons. Thank you. Chairman Feinstein, Ranking Member 
Alexander and Senator Lautenberg, thank you for the opportunity 
to appear before you today to discuss the nuclear accident 
situation in Japan, the DOE's response and our research, 
development and deployment programs relevant to nuclear safety.
    I will leave discussion of the accident itself to my 
written testimony and focus now on the DOE's response and our 
ongoing RD&D programs.
    To assist in the country's response, the National Nuclear 
Security Administration's (NNSA) Nuclear Incident Team 
Operations Center was promptly activated and has been 
continuously staffed by both the NNSA and Office of Nuclear 
Energy personnel since the accident. The focus of all DOE 
activities has been to understand the accident progression and 
offer advice and assistance to Japanese officials who have the 
direct responsibility to manage the accident recovery.
    The DOE has deployed about 40 people and more than 1,700 
pounds of equipment, including NNSA's aerial measuring system 
(AMS), and a number of consequent management response teams. 
The AMS measures radiological contamination on the ground 
deposited from transit of any released plumes. The AMS data, 
taken now over a number of days, are consistent with reduced 
levels of radiation compared to earlier measurements and show 
no evidence of significant new releases, between March 19 and 
March 29. In addition, NNSA has been modeling potential 
transport of radioactive materials released from the plant, 
utilizing the national atmospheric release advisory capability 
at the Lawrence Livermore National Laboratory.
    As Chairman Jaczko has also stated, we do not believe that 
the radiation released by the plant poses a public health 
danger in the United States, although certainly low levels, 
trace levels of radioactivity attributable to the accident have 
been observed here. The Office of Nuclear Energy has 
established a nuclear energy response team to utilize the 
capabilities of the DOE national laboratories in a wide range 
of analyses. We are also working at the United States Embassy 
in Tokyo, with NRC staff in Japan and in Rockville, Maryland 
and with Japanese agencies and industry.
    DOE and the NRC worked directly with the Institute for 
Nuclear Power Operations (INPO), and the Nuclear Energy 
Institute to encourage formation of an industry-led assistance 
team. INPO is now leading this industry team deployed both in 
Japan and at INPO headquarters in Atlanta. And in addition, 
Secretary Chu and White House Science and Technology Advisor 
John Holdren have reached out to laboratory directors and other 
eminent scientists for technical advice. They are in touch with 
them on a daily basis, as well as with an internal team of 
scientists and engineers to analyze the situation, suggest new 
approaches and evaluate potential solutions.
    Now beyond our response to the accident, the research 
development and deployment programs of my office are highly 
relevant to future decisions about potential options for 
nuclear power in the United States. Our proposed SMR program 
will explore designs that offer safety advantages through 
extensive use of passive systems. We are also conducting 
research and development into high-temperature, gas-reactor 
designs that offer inherent design safety features. Our light 
water reactor (LWR) sustainability program is exploring whether 
the lifetime of operating reactors can be extended with no 
compromise in safety. Researching fuel cycles is also within my 
office.
    While we await guidance from the Blue Ribbon Commission on 
America's nuclear future, we are conducting research and 
development into a broad range of options for the Nation's fuel 
cycle, with careful attention to safety, environmental 
protection, and nonproliferation.
    Safety of future systems is really the key to all of our 
programs. Selected research areas like fuel claddings that 
cannot generate hydrogen in an accident or fuels that are 
virtually impossible to melt have very obvious relevance. And 
the new modeling and simulation hub which is based at Oak Ridge 
National Laboratory will provide important new capabilities to 
the nuclear industry, capabilities that can be used to assess 
and improve the safety of existing reactors.
    Deputy Secretary Dan Poneman recently stated that we view 
nuclear energy as a very important compliment to the overall 
portfolio we are trying to build for a clean energy future. The 
programs of the Office of Nuclear Energy are focused on 
assuring that the option for safe nuclear power remains open to 
the Nation.

                           PREPARED STATEMENT

    In conclusion, the earthquake and the resulting tsunami 
brought tremendous devastation on Japan. At the DOE we are 
making every effort to assist the Japanese people in their time 
of need.
    Thank you and I look forward to your questions.
    [The statement follows:]
                Prepared Statement of Dr. Peter B. Lyons
    Chairman Feinstein, Ranking Member Alexander, and members of the 
subcommittee, thank you for the opportunity to appear before you today 
to discuss the nuclear accident situation in Japan and the Department 
of Energy's (DOE) response.
    Let me briefly recap our current understanding of events at the 
Fukushima-Daiichi nuclear power plant with its six nuclear reactors, 
albeit with many gaps in our knowledge. When the earthquake on March 11 
struck, the three operating reactors (Units 1, 2, and 3) shut down in 
accordance with operating procedures. Backup diesel generators started 
per procedures to keep the water pumps and instrumentation operational. 
But when the earthquake-generated tsunami struck, those backup power 
generators were damaged.
    Units 1, 2, and 3 used battery power to continue to run their 
cooling pumps until the batteries were drained or the pumps failed. As 
the reactor cores heated from radioactive decay, steam was produced. 
The pressure buildup from that steam required venting, which released 
some radioactive materials. It also lowered the water level in the 
three reactor pressure vessels, reducing the cooling of the core. It 
appears that all three reactor cores are damaged to unknown extents. 
Additionally, as the fuel rod temperature increased, a reaction took 
place between the zirconium fuel cladding and the water in the pressure 
vessel, producing hydrogen. This hydrogen was vented along with the 
steam and may have ignited at all three reactors. Substantial explosive 
damage is visible at Units 1 and 3, presumably from these explosions. 
An explosion may have damaged the containment structure at Unit 2. 
Fission products have been released through these processes. Once 
pumper units were brought in, seawater cooling was used for many days 
until fresh water supplies were available.
    Water levels at the spent-fuel pools are also of concern with some 
reports that at least one was empty for some time. Depending on the 
condition of the pools and the age of the fuel in the pool, the 
cladding of the used fuel could ignite. Such a zirconium fire would be 
very difficult to extinguish and could potentially lead to significant 
releases. Seawater was also used to cool spent-fuel pools, until fresh 
water supplies were obtained.
    Current information suggests that the plants are in a slow recovery 
from the accident. Long-term cooling of the reactors and pools is 
essential during this period. A massive cleanup operation remains for 
the future.
    To assist in the United States' response, National Nuclear Security 
Administration's (NNSA) Nuclear Incident Team (NIT) Operations Center 
was promptly activated and has been continuously staffed by NNSA and 
Office of Nuclear Energy personnel since the accident. The focus of all 
DOE activities, led by the operations center, has been to understand 
the accident progression and offer advice and assistance to the 
Japanese officials who have the direct responsibility to manage the 
accident recovery.
    The DOE has deployed about 40 people and more than 17,000 pounds of 
equipment to Japan, including NNSA's Aerial Measuring System (AMS) and 
Consequence Management Response Teams. The response teams on the ground 
are utilizing their unique skills, expertise, and equipment to help 
assess, survey, monitor, and sample ground areas for radiation. Since 
arriving in Japan, the AMS team has collected and analyzed data 
gathered from more than 40 hours of flights aboard Department of 
Defense fixed wing and helicopter platforms. Sampling of airborne 
radiological material, coupled with spectroscopic measurements by the 
DOE team, have helped to determine that virtually all the material 
studied to date is consistent with releases from operating reactors, 
not the used fuel in the pools from which short-lived radioactive 
materials have already decayed.
    The AMS measures radiological contamination on the ground deposited 
from transit of any release plumes. We are sharing the results of these 
measurements with Japanese officials. In addition, AMS data are 
available on the DOE Web site.
    As of March 19, 2011, all AMS measurements beyond 2.5 miles from 
the reactor were below 30 millirem per hour. Elevated readings have 
been observed within about 25 miles of the Fukushima-Daiichi Nuclear 
Power Plant and a distinctive pattern to the ground deposition is 
readily observable with an area of higher contamination extending to 
the northwest of the plant. The AMS was grounded by weather for several 
days and flew again on March 24. The new data are consistent with 
reduced levels of radiation compared to the earlier measurements and 
show no evidence of significant new releases between March 19 and 24.
    In addition, the NNSA has been performing in-country and long-
distance modeling of potential plume movement using the National 
Atmospheric Release Advisory Capability (NARAC) at Lawrence Livermore 
National Laboratory. The NRC supplies the hypothetical source terms for 
these NARAC calculations.
    The Office of Nuclear Energy has established a Nuclear Energy 
Response Team (NERT). The purpose of this team is threefold:
  --Provide expert analysis on reactor conditions to DOE leadership 
        from reported information and investigate discrepancies or 
        conflicting reports.
  --Support the NIT Operations Center with analysis or additional 
        information as needed.
  --Coordinate analysis activities at the DOE national laboratories in 
        support of the above.
    The NERT consists of eight sub-teams organized by major systems of 
the reactor (e.g., cooling, electrical power, reactor vessel) that 
meets twice daily.
    The Office of Nuclear Energy has staff in Japan working directly 
with NRC's staff in Japan and with the Japanese agencies and industry. 
We also have a representative at the NRC operations center in 
Rockville. The Office of Nuclear Energy is also in contact with the GE-
Hitachi command centers.
    DOE and NRC have worked with the Institute for Nuclear Power 
Operations (INPO) and the Nuclear Energy Institute (NEI) to encourage 
formation of an industry assistance team. INPO is now leading this 
industry team, deployed both in Japan and at INPO headquarters in 
Atlanta. Members of the NERT are in regular contact with the INPO 
teams.
    In addition, Secretary Chu and White House Science and Technology 
Advisor John Holdren have jointly set up an informal group of experts 
on reactor safety and accident mitigation from inside and outside the 
Government. The group has a daily teleconference in which the newest 
information is discussed and the individual members convey their 
thoughts about the most promising approaches to the Secretary and Dr. 
Holdren.
    Beyond our response to the accident, the research, development, and 
deployment programs of the Office of Nuclear Energy are highly relevant 
to future decisions about the potential options for nuclear power in 
the United States. Our proposed Small Modular Reactor program will 
explore designs that offer safety advantages through extensive use of 
passive systems. We are also conducting research and development into 
high-temperature, gas-reactor designs that offer inherent safety 
features. The Light Water Reactor Sustainability Program is exploring 
whether the lifetime of operating reactors can be extended with no 
compromise in safety.
    The Office of Nuclear Energy also performs research on fuel cycles. 
We are conducting R&D into a broad range of options for the Nation's 
fuel cycle with careful attention to safety, environmental protection, 
and nonproliferation. In addition, our cross-cutting research into 
areas like advanced materials and instrumentation is exploring 
technologies that could enable future safety enhancements, like fuel 
claddings that cannot generate hydrogen in an accident or fuels that 
are virtually impossible to melt. And the new Modeling and Simulation 
Hub, based at the Oak Ridge National Laboratory, will provide new 
capabilities to the nuclear industry, capabilities that can be used to 
assess and improve the safety of existing reactors.
    I fully concur with the statement made by Deputy Secretary Poneman 
at a White House briefing on March 14 that: ``We view nuclear energy as 
a very important component to the overall portfolio we are trying to 
build for a clean energy future.'' The programs of the Office of 
Nuclear Energy are focused on assuring that the option for safe nuclear 
power remains open to the Nation.
    In conclusion, the earthquake and resulting tsunami have visited 
tremendous devastation on Japan. Those of us at the DOE are making 
every effort to assist the Japanese people in their time of need.

    Senator Feinstein. Thank you very much. And we will proceed 
to the questions.
    Mr. Chairman, I would like to begin with you. The ranking 
member mentioned there are 104 operating nuclear power reactors 
at 65 sites in our country. I understand there are 48 dry cask 
storage facilities in the United States. If my numbers are 
accurate, does this mean that there are 17 reactor sites with 
no dry cask storage option?
    Mr. Jaczko. If your numbers are correct there are some 
sites that have not yet gone to dry cask storage. We 
anticipate, in time, that most sites will eventually move in 
that direction.
    Senator Feinstein. So the fuel rods just remain in the 
spent-fuel pools?
    Mr. Jaczko. Correct. And for those sites that have not gone 
to dry cask storage, they remain in the pools. And these pools 
are very robust structures that are designed to deal with the 
kinds of natural phenomenon that we designed the entire reactor 
site to. It is very thick, reinforced concrete structures, 
generally about 4- to 5-feet thick walls with very thick 
floors, so they provide, we think, a very robust protection for 
the fuel.
    Senator Feinstein. Let me ask this. What are the regulatory 
requirements relative to spent fuel? They can just sit forever 
in spent-fuel pools?
    Mr. Jaczko. The way our requirements are based is we have 
requirements about the minimum amount of time that the fuel 
would need to be in the pool. So generally we think about 5 
years or so is a reasonable timeframe for the fuel to need to 
be in the pool, simply because it is very physically hot, so 
it--that heat needs to dissipate and that needs to happen in 
the pool itself.
    Senator Feinstein. Do you have a maximum time?
    Mr. Jaczko. We don't have a maximum time, but we do analyze 
the fuel that is in the pool. And if, as new fuel were to be 
added to the pool, that goes through a very rigorous analysis 
to ensure that that can be done safely and securely.
    Senator Feinstein. So one wouldn't be surprised, in these 
plants, to see fuel in those spent-fuel pools for decades?
    Mr. Jaczko. That is possible, certainly. Many sites have 
begun to move, as you indicated, their fuel out of the pools 
into dry cask storage. Generally, what the utilities like to do 
is reserve some amount of space in the pool to be able to take 
the fuel that is in the reactor at any time and move that into 
a pool. So that tends to be the condition at which if they lose 
that ability to have that extra space, then they will usually 
move to dry cask storage to store the fuel.
    Senator Feinstein. Well, in the two plants I looked at, 
with respect to the dry casks, the casks at one plant were 
standing outside and the casks at the other plant were in a 
water-resistant building. Are there any standards for dry cask 
storage?
    Mr. Jaczko. We--the dry cask storage systems are required 
to be certified by the NRC to, again, meet very rigorous 
standards for dealing with natural phenomenon and as well as 
ensuring the safety of the fuel itself. So there are basically 
two types of systems that are generally used, and I think you 
saw examples of those two types at Diablo Canyon and San 
Onofre. So we have approved those and again, they meet our high 
standards for natural phenomenon, for ensuring that the fuel 
will stay sufficiently cool and that we won't have any type of 
nuclear reaction in the fuel itself.
    Senator Feinstein. Why aren't there better standards for 
spent-fuel pools? You have good standards for the reactor, but, 
it seems to me, not for the spent fuel.
    Mr. Jaczko. Well, the spent-fuel pools are considered 
safety significant systems. So they meet a lot of the same 
standards that the reactor itself would have to meet. For 
instance, the spent-fuel pools themselves are required to 
withstand the natural phenomenon like earthquakes and tsunamis 
that could impact the reactor itself. They are required--the 
spent fuel is required to be able to deal with these severe 
accidents. It is also required to be able to deal with the 
possibility of any type of nuclear reaction happening in the 
pool itself. So there are very high standards and they're very 
comparable to the reactors themselves.
    Senator Feinstein. Well, didn't Japan have similar 
standards? Yet, the spent-fuel pools could not withstand the 
tsunami and the earthquake.
    Mr. Jaczko. At this point we don't know exactly what 
contributed to the situation with the spent-fuel pools in 
Japan. It's unclear whether that was a direct result of the 
earthquake itself or whether there was subsequent actions, such 
as the hydrogen explosions that occurred, that created a more 
difficult situation with the spent-fuel pools. But, I would 
add, from what we do know right now, there are six spent-fuel 
pools in Japan and we believe with a good level of confidence 
that certainly the spent-fuel pool for unit one has operated 
normally without any particular challenge, the unit pool--the 
unit two pool as well has operated fine. The challenges we're 
seeing are really with units 3 and 4. But units 5 and 6 also 
were operating in a stable way at this time. So we haven't seen 
challenges with all the pools in Japan, just a small subset.
    Senator Feinstein. Was it cracks in the superstructure of 
the pool itself that caused the two to fail?
    Mr. Jaczko. Right now we don't know for sure what the 
situation is. We believe it is possible that there was perhaps 
a leak in the unit 3 pool and that perhaps there were some 
other challenges with the unit 4 pool. But again, we don't know 
at this point whether that was the result of the earthquake and 
the tsunami or some of the subsequent events that happened. So 
those are the kinds of things we will be looking at as we 
embark on our short term and our longer term to analyze that.
    Senator Feinstein. Thank you very much.
    Senator Alexander.
    Senator Alexander. Thank you, Madam Chair. Mr. Jaczko, 
continuing the chairman's comments, most of the problems we 
read and hear about in Japan from the reactors comes basically 
from the inability to cool some of the used fuel rods. Is that 
right?
    Mr. Jaczko. Well, I think it is--there are really two 
issues that we are looking at. One is ensuring the continued 
cooling of the reactors themselves and then maintaining the 
cooling in the pool, so both of those issues are important.
    Senator Lautenberg. Cooling--it is a cooling issue?
    Mr. Jaczko. It is a cooling issue for us.
    Senator Alexander. When we talk about storing all the spent 
nuclear fuel in the United States produced in the last 35 
years, by my mathematics, roughly speaking, it would fit on a 
single football field 20 feet deep. Is that right?
    Mr. Jaczko. I believe I have seen estimates like that. I 
think that is approximately correct.
    Senator Alexander. And today that spent nuclear fuel is 
stored on the site where the nuclear reactor is, according to 
your rules and regulations. How long can that be safely stored 
there?
    Mr. Jaczko. Well, right now the NRC recently affirmed a 
decision we have made over the years that we call our waste 
confidence decision. And in that decision we look at what the 
long-term impacts, ultimately the long-term environmental 
impacts are from that spent fuel. And right now we believe that 
for at least a hundred years that fuel can be stored with very 
little impacts to health and safety or to the environment.
    In addition, as part of that decision the NRC asked the 
staff at the agency to go out and take a look to really see if 
you are to go out 2 or 3 or 400 years if there are any safety 
issues that could arise that would present a challenge to the 
kind of approach we have right now for dealing with spent fuel.
    So right now we believe that this is material that can be 
stored safely and securely in either the spent-fuel pools 
themselves or in dry cask storage.
    Senator Alexander. So what you are saying is that most of 
the reactor problems we have been reading about in Japan have 
to do with the cooling of used nuclear fuel or spent fuel, and 
that in the United States, the amount of material we have 
produced over the last 35 years which is currently stored in 
pools or dry casks at various sites, would only fill a football 
field 20-feet deep.
    Mr. Jaczko. Sixty-five sites.
    Senator Alexander. And it is your estimate or the NRC's 
estimate that it can be safely stored there for up to 100 
years?
    Mr. Jaczko. That is our assessment right now. Yes.
    Senator Alexander. Now, I want to compliment the President. 
When he started his administration I was afraid he was going to 
lead us on a national windmill policy instead of a national 
energy policy. But his attitude toward nuclear power, in my 
opinion, has been thoughtful and balanced, including through 
this crisis. He has appointed excellent people to your NRC. Dr. 
Chu has been a strong appointment. He has recommended loan 
guarantees for the first new nuclear plants and more important, 
or equally important, he has a distinguished panel looking at 
the future of used nuclear fuel.
    And I want to ask you to comment on that, you or Mr. Lyons.
    As I understand it, while we can safely store used nuclear 
fuel onsite for 100 years, what the President and others are 
suggesting is that we research a better way to store it. That 
might include reducing its volume by 70, 80, or 90 percent, 
making it that much smaller, finding ways that plutonium isn't 
separated from it, recycling it or using it over and over 
again. So the bottom line is that we are comfortable with being 
able to store it in its current form and location for up to 100 
years, but over the next 10 to 20 years we will be looking for 
a better way to recycle and reuse it, and that is what we're 
hoping to find from the recommendations of the President's 
commission.
    Am I approximately right in that or what comments would you 
add?
    Mr. Jaczko. Well, I would defer to Secretary Lyons 
probably--he can best answer that question, I think.
    Mr. Lyons. Well, Senator Alexander, as you note, the 
mission of the Blue Ribbon Commission is to explore a wide 
range of options for management of used fuel, the back end of 
the fuel cycle. And certainly at the DOE we are eagerly 
awaiting their reports and their suggestions and guidance. The 
interim report of that group is due by July 29, final report by 
January of next year. And we anticipate that that will provide 
important guidance to the range of R&D programs that we have at 
the DOE.
    Now while we are awaiting that report, we do maintain a 
broad spectrum of research ranging from the once through cycle 
that the country has now and understanding how that could be 
improved or sustained, all the way to different options 
including the reprocessing that you're describing. And we view 
our goal as providing a set of options to the American people, 
certainly guided by the output of the Blue Ribbon Commission 
that can lead to a long-term sustainable policy for used fuel 
management in the country.
    Senator Alexander. Thank you, Madam Chair.
    Senator Feinstein. Thank you very much, Senator.
    Senator Lautenberg.
    Senator Lautenberg. Yes. Thank you, Madam Chairman. Thank 
you both for your excellent testimony.
    Dr. Jaczko, do we have a better regulatory system than 
Japan? Is there a difference in the two systems?
    Mr. Jaczko. Well, I think every country that has nuclear 
power takes a different approach to dealing with the safety of 
the reactors in their country. I think we have a system that is 
well-suited to dealing with the safety of the reactors in this 
country. It is a system, as I said, that relies on multiple 
layers of protection and it incorporates a strong basis in 
technical information. And we have a very strong presence of 
inspectors at the reactor sites. So we think that this provides 
a very strong system to ensure the safety of plants in the 
United States.
    Senator Lautenberg. We, in our conversation yesterday we 
discussed a total review of all plants in America and I think 
that your time target was 90 days. Is that correct?
    Mr. Jaczko. We are looking at a short-term review in 90 
days and that will be followed by a much longer-term review as 
we get more detailed information from Japan.
    Senator Lautenberg. So we can be assured that the problems 
that we saw in Japan will have a review of possibility here in 
our--with our plants here in the country?
    Mr. Jaczko. Absolutely. That is the focus of these reviews.
    Senator Lautenberg. Well, the--you know, we have the oldest 
plant, commercial plant in America, built in 1969. The Fukiama 
plants I think were built in 1971. Is that--am I correct?
    Mr. Jaczko. Yes.
    Senator Lautenberg. Is there any question about age of 
facility that might have--that contributed to the difficulty 
there?
    Mr. Jaczko. At this point we don't know what the exact 
causes of the situation in Japan are. But again, if we look at 
the situation for the U.S. reactors, all the reactors that we 
have that are of a similar type have undergone modifications 
and improvements to deal with the kinds of situations that we 
are seeing in Japan.
    For instance, it has been known, since the late 1980s and 
early 1990s that the accumulation of hydrogen presents a 
significant challenge. So the reactors of this type in 
particular were modified to ensure that they could better 
mitigate or reduce the likelihood of that type of hydrogen 
explosion. So we think we have a program, or we have a program 
that addresses these issues, but we will do these comprehensive 
reviews to ensure that there isn't any information that we have 
missed and that can better enhance the safety.
    Senator Lautenberg. Mr. Jaczko, can we say, without fear of 
contradiction that our plants in New Jersey are updated, able 
to deal with any malfunction of the operation there? Because in 
April 2009, I am sure you recollect--April 2009, August 2009--
we had low level tritium leaks. Now tritium is a fairly 
dangerous material and what assurance can I give the people in 
the surrounding area that: we did or did not find any health 
consequences of the tritium leaks; were there examinations 
called for in the area and did we find anything that--within 
the--those families that there--they have to be concerned 
about?
    Mr. Jaczko. Well, with regard to the tritium leaks we 
believe that that is not an acceptable situation for any power 
reactor in the United States to have that kind of a leak. With 
regard to the Oyster Creek leak, we did not see any indication 
of any risk to public health and safety as a result of those 
particular leaks. And in fact, the facility has made 
significant modifications to dramatically reduce the likelihood 
of something like that happening in the future.
    And I would add that those leaks were not in systems that 
directly affect the ability of the reactor to deal with 
accidents and errors or to ensure that the reactor itself or 
the spent-fuel pools continue to function safely and securely.
    Senator Lautenberg. Thank you, Madam Chairman and thank you 
again witnesses.
    Senator Feinstein. Thank you, Senator.
    Senator Lautenberg. I assume the record will remain open?
    Senator Feinstein. It will remain open.
    Senator Lautenberg. Thank you.
    Senator Feinstein. Senator Durbin.
    Senator Durbin. Thanks a lot. And it is an honor to be part 
of our subcommittee. Thank you, Madam Chair and Senator 
Alexander.
    And so, if my memory serves me, it was--Three Mile Island 
was 1979? Is that correct?
    Mr. Jaczko. Correct.
    Senator Durbin. And I would say, for 32 years the nuclear 
power industry has really been stymied, frozen in place with 
virtually no major expansion across the United States in the 
heels--on the heels of that controversy.
    And I am wondering now if the same thing is going to happen 
as a result of Japan. Whether there will be serious questions 
raised about operations and about design and about nuclear 
waste that will once again cause this industry to stop, reflect 
and probably slow down any plans to advance.
    I also understand the economics of energies. I have been 
told that natural gas electric power creation is a much cheaper 
alternative and obviously safer in many respects. So that seems 
to be the general view of the out--what I see coming as an 
outgrowth of the Japanese tragedy.
    We had a hearing last week in Illinois, because we are so 
nuclear power dependent, one-half of our electricity is 
generated by the nuclear power, we have 11 generators and 4 of 
them are exactly the same design as Fukushima. And 
representatives of your agency came, as did State and local and 
private sector and we had a long conversation about many 
things, including the nuclear waste onsite, spent nuclear fuel 
rods onsite in Illinois, 7,200 tons worth of those nuclear--
pardon me, spent nuclear fuel rods.
    We talked about many different things and we talked about 
Yucca Mountain. And I recall from my college, the ``Myth of 
Sisyphus'' pushing that boulder up the hill and barely getting 
to the top and it rolls back to the bottom. And now we realize 
that the name of that hill is Yucca Mountain. It appears that 
we keep rolling this boulder up close to the top and never 
quite reach it.
    And I don't know ultimately whether this, I think it is $90 
billion current estimate of investment in Yucca Mountain will 
ever take place, and if it does it is probably 10 years over 
the horizon when the decision is made. And I have to ask and 
bring up a question which came up at our hearing. What about 
the situation with reprocessing? There was a time when we took 
a national position on it to try and be an example to the 
world, not to reprocess and create an opportunity to use 
plutonium for the development of weapons. But I think what is 
happening or what I see today is that two of our major allies 
in the world, Britain and France, France in particular, have 
decided that reprocessing is not only okay, it is a great 
commercial investment and they are receiving the waste from 
other countries and reprocessing it, dramatically reducing the 
size of the remaining radioactive challenge.
    Is that thinking from the Carter administration really 
appropriate today? Are we not in a world that has accepted 
reprocessing? Shouldn't we be looking at it ourselves as an 
alternative to a $90 billion Yucca Mountain investment that 
might come online 10 years from now?
    Mr. Jaczko. Well I, Senator I will briefly answer from the 
NRC's perspective and Dr. Lyons probably can give you a better 
answer to that question. We are currently doing work to develop 
an infrastructure to support a reprocessing facility in this 
country. That activity is at a probably a medium-to-low-level 
priority in the agency, because of what we see from the 
commercial sector about interest in the immediate development 
or deployment of a reprocessing facility, but there certainly 
is discussion right now and perhaps Dr. Lyons can provide more 
information on that.
    Senator Durbin. Before you go any further, let me stop you. 
You said there is a lack of interest in the commercial sector? 
Wouldn't this be our Government responsibility?
    Mr. Jaczko. It is certainly possible that it could be a 
Government responsibility, but it could also be a private 
sector development of a private reprocessing facility to do 
that.
    Senator Durbin. But is it your belief that the private 
sector in nuclear power believes that maintaining these pools 
across the United States is a viable alternative?
    Mr. Jaczko. Well, certainly from the agency's perspective 
we think that that can be done safely and securely. The 
ultimate decisions about how to manage that spent fuel are 
really decisions for the Federal Government and the private 
sector itself about how long term they want to maintain that.
    For instance, some utilities move more fuel more quickly 
into dry cask storage; others leave it in pools----
    Senator Durbin. If I remember the debate on this, the push 
for Yucca Mountain came from the private sector. And the 
argument was, ``We don't want to be responsible any longer for 
the spent nuclear fuel rods and the danger associated with 
them. We want the Federal Government to accept the 
responsibility, we believe it is theirs, and build Yucca 
Mountain.'' So you are saying when it comes to reprocessing 
though, they are not interested in that development?
    Mr. Jaczko. Well, I think there is some interest right now. 
I would say it is--as with any type of fuel, there is an 
industry that provides fuel for the reactors; there are 
economic considerations that go into whether or not 
reprocessing is the most effective way to provide that fuel. 
And I think in many ways that is what is driving the commercial 
side, in terms of their interest in reprocessing or no 
reprocessing. It is a cost issue in many ways right now.
    Senator Durbin. I am over time, but Dr. Lyons, if you would 
like to respond.
    Mr. Lyons. Well, my response would be very lengthy. You 
asked many, many questions, sir and maybe I can come back to it 
in subsequent rounds. But, just to answer a few of your 
questions. You started with, ``Will the incidents in Japan 
impact growth here on nuclear power?" Personally, I think that 
the review that the NRC will be conducting, the International 
Atomic Energy Agency (IAEA) has announced there will be 
international reviews where the international community will 
compare lessons learned, I think all of those factors will come 
together to help understand, and certainly for the NRC, to 
decide whether any regulatory changes are required that may 
impact the progression of nuclear power in the country.
    You alluded to, and I certainly agree, that the very low 
price of natural gas, the absence of any value placed on carbon 
certainly tends to favor approaches to new power like natural 
gas. And I think that impacts any of the clean energy 
solutions.
    I can launch into a discussion on reprocessing and I'd like 
to do that, but we are way over the time, so I will leave it up 
to you folks as to whether I should proceed.
    Senator Durbin. This is my first hearing in the 
subcommittee and I don't want to abuse the privilege.
    Senator Feinstein. Thank you very much, Senator. This has 
been very interesting. I want to thank you.
    I do want to move on, but I just want to say something. Mr. 
Chairman, you said that spent fuel could be stored safely and 
securely for 100 years either in spent fuel pools or dry casks. 
I am amazed that storing it in these pools for that period of 
time, while these pools are being racked and reracked now, with 
more and more of them in the pools. You know when the design 
basis of these plants was put into effect a lot of the threats 
weren't present. You know, we didn't worry about a terrorist 
bomb at our nuclear power plants as we do today. You have got 
all these spent fuel rods, very hot against some of them that 
have cooled off somewhat.
    I always thought that dry casks were the best kind of long-
term storage. And to me 100 years is long-term storage.
    Mr. Jaczko. Well, there is--I think this is very much an 
issue that the NRC is going to take a look at again, I think 
without a doubt, as part of this short-term and long-term 
review. But the information we have right now shows that both 
of these methodologies are equally safe for a very long period 
of time. What--obviously if you are getting to 60, 70 years of 
spent-fuel pool storage, that likely would not happen because 
that long period of time the reactor has likely been shut down 
and undergoing a period of decommissioning. And that would 
involve taking the fuel out of the pools and putting it in dry 
cask storage. So, in that longer-term scenario you would likely 
see most of the fuel being moved into dry cask at that point.
    And as the fuel does get cooler the likelihood of the very 
severe type of accident from a spent fuel gets reduced 
significantly. The concern is that you have a fire essentially 
and it releases a lot of radioactive material from the spent-
fuel pools. As the fuel ages, the likelihood of that fire 
reduces dramatically.
    Senator Feinstein. But you are adding new rods all the 
time.
    Mr. Jaczko. As part of the process we have required the 
licensees, when they add new fuel that they add it in such a 
way that they balance the various--they distribute the hot fuel 
in such a way that it really reduces the likelihood of this 
type of fire. So you--they move and shuffle all of the fuel 
each time so that you always have hot fuel that is surrounded 
by much cooler fuel to reduce the likelihood of these kinds of 
challenges.
    But again, as you really play out the much longer term, 60, 
70, 80 years, we would envision that at that point most fuel 
begins to move out of the pools and into dry cask storage. It 
is--of course the hot fuel will always have to spend some 
amount of time in the pools, just to cool off to the point 
where it can be moved. But again, I--this is something that I 
am very confident we will be looking at as part of both the 
short-term and the long-term review.
    Senator Feinstein. Thank you. Thank you.
    Mr. Jaczko. Sure.
    Senator Feinstein. Did you have anything you want to say or 
a question to ask?
    Senator Alexander. I wonder if Dr. Lyons agrees, from the 
point of view of the DOE, that used nuclear fuel can be safely 
stored onsite for up to 100 years.
    Mr. Lyons. I was on the NRC when that question was reviewed 
and I was part of the decision that evaluated that information. 
This was before my current job. Yes, I do agree.
    However, just as additional information, through the R&D 
program at the DOE, we also will be pursuing a program designed 
to understand what may be the lifetime limiting--or the life 
limiting aspects of how long dry casks can be safely used. So 
that will be another contribution to this overall discussion of 
the longevity of dry cask storage.
    Senator Feinstein. Thank you very much gentlemen. This was 
very helpful and we appreciate it. Thank you for being here.
    Oh, I'm sorry. Senator Durbin.
    Senator Durbin. I--if I can just do one followup question, 
because when I raised the issue of reprocessing I thought the 
chairman's allusion was to the economics of it. And can any--
can either of you speak to the economics of reprocessing and 
deriving some sort of fuel source from that and dramatically 
reducing the waste that is left behind, as opposed to the 
current cost of cooling pools, casks and ultimate national 
repository?
    Mr. Lyons. Senator Durbin, if I may. I indicated that we do 
have research programs that span the gamut of different options 
for the back end of the fuel cycle and that certainly includes 
the reprocessing that you are addressing. In addition, the Blue 
Ribbon Commission will be providing guidance on this.
    As far as the economics, I have never seen a study that 
claimed that it was less expensive to use reprocessing. There 
may be other reasons why one would want to reprocess, but I am 
certainly not aware of any study which says that reprocessing 
would be a lower-cost option, nor am I aware of any utility in 
this country that is pushing to move toward reprocessing. There 
certainly are companies for whom that is their product and 
would be very interested.
    Yes, also you mentioned the situation in France and Japan. 
Let me just note that part of our research is designed to 
understand some of the limitations on particularly the approach 
that is used in Japan, the PUREX approach, which we would not 
utilize in this country from a number of different 
perspectives, including a nonproliferation concern and 
including environmental concerns.
    Senator Durbin. So, if I can for a second, but correct me 
if I'm wrong, I understood, during the debate on Yucca Mountain 
that it was agreed that the ultimate responsibility for storing 
this nuclear waste was to be borne by the government taxpayers.
    Mr. Lyons. That is correct. That is the Nuclear Waste 
Policy Act and the Amendments Act.
    Senator Durbin. And so when you say that the commercial 
private sector does not support reprocessing, it would seem to 
me that we ought to be asking, from the taxpayer's viewpoint, 
whether that is an economic alternative if we are ever to build 
Yucca Mountain and transport the--all the waste in America to 
that site.
    Mr. Lyons. Well, the Nuclear Waste Policy Act also requires 
that there be a fee levied on all nuclear power use that is 
intended to cover the costs of whatever back end, whatever 
disposition system is to be used. So whatever the costs of that 
will be, and currently there is a one mil per kilowatt hour 
assessment on nuclear power, that is intended to cover the back 
end. To the extent perhaps additional funds would be required 
for other back end systems that would be passed along.
    Senator Durbin. My last question, I am sorry Madam Chair, 
but taking the current French approach on reprocessing, are you 
saying that we have done an economic model to compare the cost 
of reprocessing against the cost of a national repository?
    Mr. Lyons. There have been a number of such models. I 
certainly can't characterize all of them quickly, but I am 
quite sure that the majority, if not all of them would say that 
a repository, I am not saying economic, but a repository 
approach probably is a lower cost. But there may be other 
reasons, and this is part of the Blue Ribbon Commission review, 
there may be other reasons that would drive one toward some 
form of reprocessing. I believe it would be different than what 
is used in France.
    Senator Durbin. Thank you.
    Mr. Jaczko. Senator, if I could perhaps clarify my 
reference to the economics. The economic comparison that I am 
referring to is the cost of fuel that would come directly from 
uranium that is mined in the ground as opposed to the cost of 
fuel that would come from reprocessed uranium. That is the 
economic comparison that I was referring to. And in that case 
right now the price of uranium generally favors the naturally 
mined uranium as a source of fuel. So that was the economic 
comparison I was referring to.
    Senator Feinstein. Thank you very much.
    Senator Lautenberg. I just--Madam Chairman, your indulgence 
please for a question that I have that has puzzled me since you 
testified at an earlier hearing, Dr. Jaczko.
    The NRC requires evacuation plans only for areas within 10 
miles of a plant, but the United States Government has warned 
Americans in Japan to stay at least 50 miles away from the 
damaged reactors there and the ships were turned around, I 
think it was at 60 miles. When I asked you at the previous 
hearing what you thought was a safe distance, I think that the 
response that you gave me was 20 miles. Can we clear this up? 
And why not require the same kind of evacuation plan to address 
the same distance here at home?
    Mr. Jaczko. Well, Senator, this is likely an issue we will 
be looking at as part of our short-term and long-term reviews, 
but the 10-mile distance in the United States is the distance 
at which we develop preplanned and prepared evacuation plans. 
So it is based on an event that would happen in a very short 
period of time for which you would not have the ability to 
develop additional planning for evacuations beyond a certain 
distance. There is always the possibility that if an event were 
to develop like it has in Japan, that additional protective 
actions could be required beyond 10 miles. But the requirements 
we have in place are for those--the preplanning that needs to 
be done so that if you got an event that happened and developed 
very quickly, you wouldn't have to take the time then to 
develop the evacuation plans, they are already developed and 
ready to go as soon as that event happens.
    But of course as the events in Japan show, that it was 
something that happened over a course of many, many days before 
we got to the point at which we looked at information that 
indicated you could have to go to a great distance. So far the 
data coming out of the plant continues to show that the safe 
distance there is approximately 20 miles.
    So there is the work that we do to preplan, which right now 
we believe 10 miles is sufficient. But that is not necessarily 
the end of any protective action. You could take additional 
action beyond that if necessary.
    Mr. Lautenberg. We look forward to hearing from you on kind 
of a continuing basis to find out what a good conclusion is 
that you come to. Thank you.
    Senator Feinstein. Thank you very much, Senator.
    We've been joined by Senator Graham. Would you like to make 
a statement or ask questions?
    Senator Graham. Just ask questions would be great.
    Senator Feinstein. Go right ahead.
    Senator Graham. Thank you. I am honored to be on the 
subcommittee.
    Mr. Chairman, do you believe the nuclear power industry in 
the United States is well-regulated and generally safe?
    Mr. Jaczko. I certainly, as the chairman of the NRC, 
believe it is well-regulated.
    Senator Graham. Okay.
    Mr. Jaczko. And we do believe we have a strong program to 
ensure protection of public health and safety.
    Senator Graham. Would you advise the Congress to continue 
to pursue nuclear power as part of energy production in this 
country?
    Mr. Jaczko. Well, decisions ultimately about what to do 
with nuclear power really are beyond our, really our 
responsibility.
    Senator Graham. Just as a citizen, would you like to see 
America have more nuclear power in the future?
    Mr. Jaczko. I, as a citizen, would like to see nuclear 
power that is safe and secure and that is fundamentally my job 
as chairman of the NRC.
    Senator Graham. And do you believe that the nuclear power 
plants that we are talking about constructing in the future are 
more modern and safer?
    Mr. Jaczko. Certainly the plants that are under 
consideration have enhanced design and enhanced safety features 
that at least on--at the design stage and on paper seem to 
indicate that they would have an inherent safety advantage over 
the existing plants.
    Senator Graham. One of the benefits----
    Mr. Jaczko. But I want to stress, if I could, that we 
believe the plants that are in existence today do meet our 
requirements for safety and security and the new plants could 
potentially have some additional enhancements over that.
    Senator Graham. It is like new cars have things that old 
cars don't have, but we still drive older cars. I have an older 
car and I feel safe in it. I will buy a newer car and may be 
even safer, I guess.
    At the end of the day, one of the big impediments--the 
benefit of nuclear power is it creates good jobs, in my view, 
and it doesn't emit pollutants in the air. Is that your 
understanding? I wonder if it is----
    Mr. Jaczko. Well, again we--you know, the focus for the 
agency is really to make sure that the nuclear power that is in 
this country is safe and secure. And we continue to have a 
program, we think, that ensures that.
    Senator Graham. If I called it ``clean energy'' would you 
agree?
    Mr. Jaczko. You know, I tend to not like to get into----
    Senator Graham. I see.
    Mr. Jaczko [continuing]. Discussions about those kind of 
things.
    Senator Graham. Let's talk about spent fuel. Can we talk 
about that?
    Mr. Jaczko. Sure.
    Senator Graham. Because I think--I didn't hear his 
question, but Senator Durbin is making a point about what 
should we do with spent fuel. I have always been a fan of the 
French reprocessing system, but quite frankly Secretary Chu has 
convinced me, and I think he is one of the best Secretary of 
Energy that we have ever had since I have been in the Congress. 
I like him a lot, incredibly smart. He has convinced me that if 
we will be patient, maybe in the next decade plus there will be 
new technologies developed on the spent-fuel reprocessing front 
that would be worth waiting on. Do you agree with that?
    Mr. Jaczko. Well, I think again from the NRC perspective--
--
    Senator Graham. Mr. Lyons.
    Mr. Jaczko [continuing]. We would just want to make sure 
that spent fuel can be stored safely and securely----
    Senator Graham. Okay.
    Mr. Jaczko [continuing]. Until then. And we think that is 
the case right now.
    Senator Graham. Okay. Mr. Lyons.
    Mr. Lyons. Let me start, Senator Graham, by heartily 
agreeing with my boss, Secretary Chu.
    Senator Graham. Both of you all are very smart. I like it.
    Mr. Lyons. But we--yes, we are very interested in exploring 
a wide range of options on the back end of the fuel cycle and 
putting it----
    Senator Graham. So you think it would be beneficial for the 
country not to duplicate the French system right now?
    Mr. Lyons. The French system uses the so-called PUREX 
process. They have certainly made some improvements in it over 
the years, but we do have some issues related to possible 
proliferation from that cycle as well as environmental issues. 
We think that with research we can do substantially better and 
that is the research that Secretary Chu is leading, through my 
office.
    Senator Graham. Is shutting Yucca Mountain down helpful to 
our nuclear waste problem or harmful?
    Mr. Lyons. Let me answer in this way, Senator. I came to 
the Department after the decision had been made and I heartily 
agreed with the Secretary that Yucca Mountain is not a workable 
solution, because I believe that the equation needs both a 
technical and a local support. As a resident of Nevada for many 
years I saw the lack of local support. I do think it is 
possible, and certainly the Blue Ribbon Commission is working 
toward approaches that may not only provide interesting 
technical options, but I hope can be done in ways, like it has 
been done in many international venues, with strong, local 
support.
    Senator Graham. Okay. Thank you. I think that is the key to 
this is probably local political support more than anything 
else.
    But we will just move on right quickly to MO<INF>X</INF> 
fuel. Can you tell us what MO<INF>X</INF>--did MO<INF>X</INF> 
fuel in any way contribute to the disaster in Japan?
    Mr. Lyons. No.
    Senator Graham. We have a program to create MO<INF>X</INF> 
fuel in America that would take plutonium weapons and convert 
them into plowshares; it is called The MO<INF>X</INF> Program 
at Savannah River, South Carolina. Do you support that?
    Mr. Lyons. Yes, sir. That is not through my program, 
however, yes, I am well aware of the program. And that is 
through NNSA, the defense----
    Senator Graham. If I could just indulge my colleagues a 
moment. There are 34 metric tons of weapons-grade plutonium 
that are in excess of our defense needs here and the equivalent 
amount in Russia. And these are literally nuclear weapons. And 
there is a process called MO<INF>X</INF> where you can take the 
weapon and dilute it down and create commercial fuel. You are 
literally taking a sword and turning it into a plowshare. And 
that program is going on in South Carolina at the Savannah 
River site.
    And I just want to thank the administration for being 
supportive of the program. And there are some things being said 
in the House about the MO<INF>X</INF> Program I would like to 
get straight. Again, do you believe that producing 
MO<INF>X</INF> fuel here in America makes sense, it is overall 
safe and do you recommend we continue to do so?
    Mr. Lyons. Well again sir, when we cross to safety I need 
to pass it back to Greg. I certainly understand the 
nonproliferation aspects of this. And----
    Senator Graham. It is huge, isn't it?
    Mr. Lyons. Yes, sir.
    Senator Graham. It is huge. I mean you are literally taking 
weapons grade plutonium off the market and doing something 
constructive with it.
    Mr. Chairman, do you support the MO<INF>X</INF> Program?
    Mr. Jaczko. Well, we have done very thorough analyses of 
the use of MO<INF>X</INF> fuel and right now we--all the 
information we have indicates that it can be used safely.
    Senator Graham. Thank you very much for your testimony.
    Senator Feinstein. Thank you very much, Senator Graham.
    Gentlemen, thank you so much. We will proceed to the next 
panel.
    I would ask the witnesses to come forward as quickly as you 
can and staff to change the name cards.
    We will begin with Dr. Moniz of MIT. Thank you, sir, for 
being here. The clock will run in 5-minute allocations. We 
review your written statements so if you could summarize and we 
can have a more informal discussion I think that would be most 
useful.
    You have heard the prior panel. We would be interested on 
your reactions and reflections.
STATEMENT OF DR. ERNEST J. MONIZ, PROFESSOR OF PHYSICS, 
            MASSACHUSETTS INSTITUTE OF TECHNOLOGY
    Dr. Moniz. Madam Chairman, Ranking Member Alexander, thanks 
again--thanks for the opportunity to present and discuss some 
views on the development of nuclear power in the United States 
in the wake of the Fukushima events.
    I must start by emphasizing that my testimony is purely my 
personal view, not the view of PCAST, the Blue Ribbon 
Commission or MIT.
    Fukushima has reopened the global discussion about the 
future of nuclear power, but we clearly don't know how this 
debate will end. However, I think some outcomes are a very good 
bet. The cost of doing business at nuclear reactors will go up; 
the expected relicensing of 40-year-old nuclear plants for 
another 20 years will face additional scrutiny. These plants, 
like those at Fukushima, rely to a large extent on active 
safety systems rather than the passive safety systems built 
into the new designs. And the third, the options for the entire 
spent-fuel management system I expect will be re-evaluated.
    Let me selectively address a few of these issues. First 
cost. Currently operating plants would certainly face a very 
expensive proposition to retrofit if design threats are 
elevated substantially. This calls for a plant-by-plant review, 
of course including specific circumstances, like seismic. In 
many cases however, perhaps most, I expect the design basis 
threats are likely to be deemed sufficiently conservative and 
remain unchanged.
    The regulatory decisions about safety requirements can be 
assisted by application of new capabilities, among them the 
kind of advanced modeling and simulation tools being developed 
at DOE's first innovation hub at Oak Ridge, and I might say, 
with major MIT engagement. Other types of retrofits could be 
more easily absorbed into normal operations such as 
transitioning the silicon-carbide fuel cladding to get higher-
safety margins. I believe that the slow pace of this indicates, 
historically, an R&D program poorly aligned with strategic 
priorities, but the DOE current roadmap I think is a big step 
in the right direction.
    Now new nuclear power plants are already challenged, let's 
face it, by high capital costs and increased costs--capital or 
operating--could tip the balance for many projects, depending 
on many financing and cost recovery factors. Now reducing the 
financial risk premium for nuclear power is a major objective 
of government support for first mover plants, principally 
through the loan guarantee program. Fukushima clearly does not 
help in this regard.
    An entirely different approach to new plants lies with SMRs 
and these could be a powerful way to address the cost issue by 
moving us from economies of scale to economies of 
manufacturing. But I do want to say, and I am very enthusiastic 
about these, but I do want to say there is a catch-22 that 
these economies of manufacture can only be realized, 
presumably, if we have a sufficient stream of orders for a 
greatly winnowed down set of technology options and that will 
be a complex interplay of government and the many proponents of 
and customers for the currently contending numerous SMR 
designs.
    Prior to Fukushima the administration submitted a budget 
for 2012 that would have greatly enhanced the level of activity 
for bringing SMRs to market. I believe that program is modest, 
but sensible and deserves support.
    Second, relicensing decisions of the NRC will almost 
certainly experience some delay. If the anticipated life 
extensions are not realized at any appreciable degree, we have 
to face the issue of replacing potentially tens of thousands of 
megawatts of nonemitting generation. It is not an immediate 
problem, because of our natural gas situation, but if we want 
to have those zero emission options for 2020, it is an 
immediate challenge to develop them. And I do want to 
emphasize, among those options we must retain next-generation 
nuclear plants with advanced safety systems, including SMRs.
    Third, spent-fuel management, the Fukushima problems with 
spent-fuel pools co-located with reactors will undoubtedly lead 
to a re-evaluation of spent-fuel management strategy. Our 
reports at MIT have advocated, well before this, we should be 
moving, in any case, to consolidated spent-fuel storage. This 
has many drives, among them resolution of the Federal liability 
issues for not moving spent fuel away from reactors. And I 
believe that the Congress should allow use of the waste fund 
for development of consolidated storage.

                           PREPARED STATEMENT

    But eventually the spent fuel must go to a repository. My 
view is--my recommendation in the end is that consolidated 
spent fuel dry cask storage be established as soon as possible, 
as I discussed, and that a geological repository be established 
as soon as possible for defense high-level waste and spent 
fuel. That is, I would argue going back, re-evaluating the 
1980s decision of commingling defense and civilian waste, 
separate them. Because I believe, for many reasons, we can move 
much faster toward a defense waste repository which would in 
turn develop tremendous amounts of knowledge and experience for 
an ensuing civilian waste repository.
    Thank you and I look forward to the discussion.
    [The statement follows:]
               Prepared Statement of Dr. Ernest J. Moniz
            fukushima and directions for u.s. nuclear power
    Chairman Feinstein, Senator Alexander, and members of the 
subcommittee, thank you for the opportunity to present and discuss 
views on the development of nuclear power in the United States in the 
wake of the Fukushima events. I must start by emphasizing that this 
testimony represents my personal views, not those of the President's 
Council of Advisors on Science and Technology, the Blue Ribbon 
Commission on America's Nuclear Future, or my home institution, 
Massachusetts Institute of Technology (MIT).
    Fukushima has reopened the global discussion about the future of 
nuclear power. Several factors had led many countries to consider 
expanding their nuclear capacity, reversing phaseouts, or initiating 
new nuclear programs. These factors include a very good safety and 
reliability record for the last decades, increasing concern about the 
risks of climate change, and a concomitant recognition that enormous 
amounts of additional electric generating capacity will be needed 
without increasing greenhouse gas and other polluting emissions. 
Exactly how the new debate will end is unclear and will remain so for 
some time, as the events and responses in Japan are investigated and 
fully understood, and as safety systems, operating procedures, 
regulatory oversight, emergency response plans, design basis threats, 
and spent-fuel management are re-examined by the Nuclear Regulatory 
Commission (NRC) for currently operating United States reactors.
    Nevertheless, some outcomes are a good bet:
  --The cost of doing business at nuclear reactors will go up, 
        reflecting factors as diverse as new requirements for onsite 
        spent-fuel management to measures needed to address possible 
        elevated design basis threats.
  --The expected relicensing of 40-year-old nuclear plants for another 
        20 years of operation will face additional scrutiny, taking 
        more time than expected. Indeed some of the license extensions 
        already granted for more than 60 of the 104 plants operating in 
        the United States could be revisited. These plants, like those 
        at Fukushima, rely to a large extent on active safety systems 
        in case of accidents or natural disasters, rather than the 
        passive safety systems built into the new designs.
  --Options for the entire spent-fuel management system--onsite 
        storage, consolidated long-term storage, geological disposal--
        will be re-evaluated. This will be based both on what we learn 
        from the Fukushima investigations about the spent-fuel behavior 
        under accident conditions to a broader imperative to 
        rationalize our overall SNF management system.
    The consequences of such outcomes could be very significant for 
nuclear power and for the entire energy system. We shall selectively 
address some of the associated issues.
                                  cost
    Currently operating nuclear plants would face an expensive 
proposition to retrofit if design threats are elevated substantially. 
On the positive side, nuclear power plants have low-operating and fuel 
costs compared with coal and natural gas plants, and the owners might 
be able to absorb reasonable costs. However, the business decisions 
would be on a plant-by-plant basis depending on the design basis threat 
assigned to the plant's specific circumstances (e.g., seismic). In many 
cases, perhaps most, the design basis threats are likely to be deemed 
sufficiently conservative and remain unchanged. The regulatory 
decisions about safety requirements can be assisted by application of 
new capabilities, such as advanced large-scale modeling and simulation. 
The first of DOE's innovation hubs, located at Oak Ridge (with MIT as a 
major partner) is dedicated to developing related computational tools 
over the next several years.
    Other types of retrofits could be more easily absorbed into normal 
operations. For example, there has long been a discussion of 
transitioning to silicon-carbide fuel cladding in order to gain higher 
safety margins and other operational benefits as well. The cladding can 
be formed into the same size and shape as zircaloy cladding used in 
currently operating reactors, but has much less reactivity with steam 
(this was the source of the hydrogen in the Fukushima loss-of-coolant 
situation). But, long after this was proposed and investigated, we are 
still several years from evaluation in commercial reactors, and 
widespread adoption will take many more years. This timetable reflects 
a history of underfunded R&D programs that have been poorly aligned 
with strategic priorities. Last year's DOE R&D roadmap is a step in the 
right direction.
    New nuclear power plants are already challenged by high capital 
costs, and increased capital and operating costs could tip the balance 
for many projects, depending on many financing and cost recovery 
factors. The costs are illustrated in the table showing levelized 
electricity costs for new plant construction. This is taken from a 2010 
MIT report on the Future of the Nuclear Fuel Cycle. Today's natural gas 
prices are in the $4-$5/MBtu range, making natural gas plants much more 
economical with respect to both capital requirements and levelized 
electricity cost. However, we have been through many significant 
excursions in natural gas prices over the last decade, resulting in 
caution about committing to only one fuel source. The generation 
portfolio decisions are likely to be different in different parts of 
the country according to the integrated resource planning methodology 
of public utility commissions, the availability of infrastructure, the 
ability to incorporate costs into a rate base, generation portfolio 
standards, and State/regional carbon dioxide emissions requirements.

                                    COSTS OF ELECTRIC GENERATION ALTERNATIVES
                                                 [2007 dollars]
----------------------------------------------------------------------------------------------------------------
                                                                     Levelized cost of electricity (cents/kW)
                                  Overnight cost  Fuel cost  ($/ -----------------------------------------------
                                      ($/kW)           MBtu)                        $25/ton-CO2    Same cost of
                                                                     Base case         price          capital
----------------------------------------------------------------------------------------------------------------
Nuclear.........................           4,000            0.67             8.4             8.4             6.6
Coal............................           2,300            2.60             6.2             8.3  ..............
Gas.............................             850          4/7/10     4.2/6.5/8.7     5.1/7.4/9.6  ..............
----------------------------------------------------------------------------------------------------------------

    Modest carbon dioxide emissions charges would make nuclear 
competitive with coal. A major factor is the cost of capital, which 
hits nuclear power plant construction particularly hard because of the 
high capital costs and the longer construction times that are typically 
required. Reducing the financing risk premium for nuclear power is a 
major objective of Government support for ``first mover'' nuclear power 
plants, principally through the loan guarantee program first put in 
place in the Energy Policy Act of 2005. The events of Fukushima clearly 
do not help in this regard.
    An entirely different approach to new nuclear power plant 
construction lies with small modular reactors (SMRs). This could be a 
powerful way to address the cost issue. SMRs come in a variety of 
proposed forms, some based on the same underlying light water reactor 
(LWR) technology that is used in almost all nuclear plants today, while 
others are based on gas- or metal-cooled designs. They range in size 
from 10 to 300 megawatts. None have been through a licensing procedure 
at the NRC, and this is a time consuming process for any new nuclear 
technology--especially those that are farther away from the NRC's 
established experience and procedures.
    A major advantage of SMRs is that their small size compared with 
LWRs (whose size is typically 1,000 megawatts and now going up to 1,600 
megawatts) means that the total capital cost is more in the $1 billion 
range rather than a significant multiple of that. Capacity can be built 
up with smaller bites, and this may lead to more favorable financing 
terms--a major consideration for high capital cost projects that take 
years to license and build. Still, the SMR must come in with a cost 
that is also competitive with LWRs on a unit basis; that is, the cost 
per installed Megawatt must be comparable or less. The LWRs have been 
driven to larger and larger size in order to realize economies of 
scale. The SMRs may be able to overcome this trend by having factory 
construction of the SMR or at least of its major components, presumably 
with economies of manufacturing, the ability to train and retain a 
skilled workforce at manufacturing locations, quality assurance, 
continuous improvement, and only fairly simple construction onsite. The 
catch-22 is that the economies of manufacture will presumably be 
realizable only if there is a sufficiently reliable stream of orders to 
keep the manufacturing lines busy, and this in turn is unlikely unless 
the large number of designs is winnowed down fairly early in the game. 
Reaching the n-th plant for a small number of reactor types is likely 
to require a complex interplay between Government support and 
proponents of the many contending SMR designs.
    A 2020 SMR option will be available only if we start now, and even 
then it will be tight. Prior to Fukushima, the Obama administration 
submitted to the Congress a proposed 2012 budget that would greatly 
enhance the level of activity in bringing SMRs to market. LWR-based 
technology options would be advanced toward licensing, and other SMR 
technologies would be supported for the remaining R&D needed to have 
them follow in the licensing queue. The program is modest, but 
sensible. Obviously the Federal budget deficit makes it difficult to 
start any new programs, but a hiatus in creating new clean energy 
options--be it nuclear SMRs or renewables or advanced batteries--will 
have us looking back in 10 years lamenting the lack of a technology 
portfolio needed to meet our energy and environmental needs 
economically or to compete in the global market.
                              relicensing
    Relicensing decisions at the NRC will almost certainly experience 
some delay. A measured approach is appropriate since the NRC is 
constantly monitoring plant operations and safety margins; the 40 year 
licensing period does not represent any particular milestone with 
regard to the reactor systems themselves.
    If the anticipated life extensions are not realized to any 
appreciable degree, we will be faced with replacing tens of thousands 
of Megawatts of nonemitting generation. For the United States, this is 
not an immediate problem since the end of the original 40-year reactor 
operating periods will not be reached for most plants for a while, and 
we have both substantially underutilized natural gas generation and 
lots of natural gas. Natural gas does have emissions, but far less than 
coal, and will serve as a bridge to a very low emissions future. 
However, the challenge of developing and demonstrating ``no-emissions'' 
options for 2020 and beyond is immediate, given the significant 
timeline from R&D to regulatory approval to market.
    Next-generation nuclear plants with advanced passive safety systems 
are among those options. This includes, but is not limited to, SMRs. 
The fact remains that nuclear power is the ``emission-free'' baseload 
generation technology that is, in principle, scalable without problems 
of variability and intermittency. Clearly, a rigorous design 
certification and licensing process will be needed to assure public 
confidence.
                         spent-fuel management
    The Fukushima problems with spent-fuel pools co-located with the 
reactors will undoubtedly lead to a re-evaluation of spent nuclear fuel 
(SNF) management strategy. There is no need to act precipitously, but 
the fact is that our overall waste disposal system is fundamentally 
broken and needs re-examination in any case (as is being done by the 
Blue Ribbon Commission).
    The MIT ``The Future of Nuclear Power'' report in 2003 and the MIT 
Future of the Nuclear Fuel Cycle summary report in 2010 called for 
consolidated spent-fuel storage (these reports can be accessed at 
web.mit.edu/mitei). There are many reasons for this quite independent 
of the Fukushima experience. The 2010 report made a recommendation (pg 
xi):

    ``Planning for long-term managed storage of spent nuclear fuel--for 
about a century--should be an integral part of nuclear fuel cycle 
design. While managed storage is believed to be safe for these periods, 
an R&D program should be devoted to confirm and extend the safe storage 
and transport period.
    ``The possibility of storage for a century, which is longer than 
the anticipated operating lifetimes of nuclear reactors, suggests that 
the United States should move toward centralized SNF storage sites--
starting with decommissioned reactor sites and in support of a long-
term SNF management strategy.''

    The consolidated storage recommendation has many drivers:
  --The SNF would be stored in dry casks. There is no need for the SNF 
        to be located at the reactor site, as the operational 
        requirements are quite different; for example, the reactor 
        needs access to large amounts of cooling water, while the SNF 
        storage system does not.
  --Issues such as the Federal liability for not moving SNF from 
        reactor sites would be resolved.
  --A degree of opposition to expanding nuclear power would be 
        addressed by moving the fuel to a consolidated secure location, 
        most likely under Federal control (this does not rule out 
        privately developed sites under NRC license).
  --While the risks of cascading failures are extremely small, the 
        Fukushima incident showed that the probability is not zero. The 
        spent fuel, which contains considerable radioactivity and needs 
        cooling, would be mostly removed from the reactor site in case 
        of a major accident or natural disaster (the SNF recently 
        removed from the reactor core would still need some cooling 
        time in a pool).
  --``Densification'' of spent fuel in pools beyond the original design 
        density should not be necessary.
    The Congress should allow use of the waste fund for development of 
consolidated storage.
    Eventually, the SNF, or the high-level waste (HLW) that would 
result from a future decision to reprocess, would need to go to a 
geological repository. Indeed, the intermediate step of consolidated 
dry-cask storage could be eliminated if a repository were in place to 
accept the SNF. However, there is still a debate about whether SNF is a 
waste or a valuable energy resource to be harvested by reprocessing. 
The uncertainty has multiple origins. One is that the trajectory of 
nuclear power deployment is not clear. If nuclear power does not grow, 
it is unlikely that reprocessing will be attractive. However, even if 
nuclear power does grow, it is not obvious that reprocessing is the 
preferred path; for example, a new generation of recycling reactors 
might be started with enriched uranium rather than plutonium recovered 
from reprocessing. This uncertainty argues for maintaining options by 
committing to century-scale consolidated storage for commercial SNF, as 
recommended above, while pursuing geological repository development in 
parallel. The arduous and time-consuming process needed to establish 
and utilize one or more geological repositories for the growing amount 
of power reactor SNF calls for renewed commitment even as consolidated 
storage is established. These are core results of the MIT analysis of 
fuel cycle options.
    Going beyond those studies, I suggest that the decision to co-
mingle defense and civilian nuclear wastes should be revisited. The 
conditions today are much different from when the co-mingling decision 
was put forward in 1985. In particular, the timeline for establishing a 
commercial spent-fuel repository is evidently much longer than 
anticipated at that time.
  --The defense wastes are small compared with civilian wastes and are 
        essentially bounded (there is a small amount of additional SNF 
        each year from the naval nuclear propulsion program).
  --Much of the waste is very old and therefore relatively cool.
  --There is no argument about a possible energy value; all agree that 
        it is waste to be disposed of, so there is no need to preserve 
        options through longer-term storage.
  --There are agreements with the affected States to remove the fuel, 
        and these are important for continuing nuclear defense missions 
        at these sites.
  --A separate defense repository, while still subject to NRC 
        licensing, would have simpler finances going forward, although 
        a reconciliation would be needed with the civilian program that 
        recognized the defense financial contributions to the 
        development of Yucca Mountain.
  --Responsibility would reside with the DOE as a Government function 
        to dispose of waste generated in an inherently governmental 
        enterprise--the development of nuclear weapons.
  --At the same time, a future commercial SNF/HLW repository would not 
        have the complication of dealing with national defense HLW and 
        SNF.
    The recommendation is that consolidated SNF dry-cask storage be 
established as soon as possible at one or a few sites for commercial 
power reactor fuel and that a geological repository be established as 
soon as possible for defense HLW/SNF. A commercial repository would be 
pursued in parallel, but most likely in a longer timeframe given the 
current realities. The defense waste repository would provide 
invaluable knowledge and experience for the civilian waste repository.
    In summary, while it is too early to understand the causes and full 
implications of the Fukushima events, it is not too early to start 
thinking about the cost, relicensing, and SNF management issues that 
will inevitably arise and influence the future of nuclear power. These 
deliberations should be carried out in a measured way.
    Thank you again for the opportunity to present these views. I look 
forward to a discussion.

    Senator Feinstein. Thank you very much, Dr. Moniz.
    Mr. Levis.
STATEMENT OF WILLIAM LEVIS, PRESIDENT AND CHIEF 
            OPERATING OFFICER, PSEG POWER
    Mr. Levis. Chairman Feinstein, Ranking Member Alexander, 
thank you for the opportunity to appear before you today.
    My name is William Levis; I am the president and chief 
operating officer of PSEG Power which is a subsidiary of Public 
Service Enterprise Group headquartered in Newark, New Jersey. 
PSEG Power is a merchant generating company and owns 
approximately 14,000 megawatts of electric generating capacity. 
We own 100 percent of the Hope Creek Nuclear Station, 57 
percent of the Salem Nuclear Station and 50 percent of the 
Peach Bottom Station.
    I appreciate your invitation to testify at today's hearing 
to discuss the status of the U.S. nuclear energy industry and 
the implications of the Fukushima nuclear accident on nuclear 
energy in the United States. I am testifying today on behalf of 
the Nuclear Energy Institute, the nuclear energy industry's 
Washington based policy organization.
    My remarks today will cover four points. First, U.S. 
nuclear power plants are safe. Second, safety is the U.S. 
nuclear energy industry's top priority. Third, the U.S. nuclear 
energy industry has a long history of continuous learning from 
operational events; we will do the same as a result of the 
Fukushima event. And fourth, the U.S. nuclear energy industry 
has already taken proactive steps to verify and validate our 
readiness to manage extreme events. We took these steps early 
without waiting for clarity on the sequence of failures of 
Fukushima.
    Regarding the first point, U.S. nuclear power plants are 
safe. They are designed and operated conservatively to manage 
the maximum credible challenges appropriate to each nuclear 
plant site. U.S. nuclear power plants have also demonstrated 
their ability to maintain safety through extreme conditions, 
including floods, hurricanes, and other natural disasters.
    U.S. nuclear reactors are designed to withstand 
earthquakes, tsunamis, hurricanes, floods, tornados, and other 
natural events equal to the most significant historical event 
or maximum projected event, plus added margin for conservatism 
without any breach of safety systems.
    Regarding the second point, safety is the nuclear energy's 
industry's top priority and complacency about safety 
performance is not tolerated. We know we operate in an 
unforgiving environment where the penalties for mistakes are 
high and where credibility and public confidence, once lost, 
are difficult to recover. All the safety related metrics 
tracked by industry and the NRC demonstrate high levels of 
excellence. Forced outage rates, unplanned safety system 
actuations, worker radiation exposures, events with safety 
implications, and lost-time accident rates have all trended 
down year over year for a number of years.
    Regarding the third point, the U.S. nuclear industry 
routinely incorporates lessons learned from operating 
experience into its reactor designs and operations. I could 
point to many, many examples of improvements made to the U.S. 
nuclear power plants over the years in response to lessons 
learned from operational events over the last 40 years. Let me 
just list a few.
    In the 1970s concerns were raised about the ability of 
Boiling Water Mark 1 containments to maintain its design during 
an event where steam is vented to the torus. Subsequently, 
every United States operator with a Mark 1 containment 
implemented modifications to dissipate energy released to the 
suppression pool and installed stringent supports to 
accommodate loads that could be generated.
    In 1988, the NRC concluded that additional Station Blackout 
(SBO), regulatory requirements were justified and issued the 
Station Blackout Rule to provide further assurance that a loss 
of both offsite and onsite emergency AC power systems would not 
adversely impact public health and safety. The SBO Rule was 
based on several planned, specific probabilistic safety 
studies, operating experience and reliability, accident 
sequence, and consequent analysis completed between 1975 and 
1988.
    And third, since the terrorist events of September 11, 
2001, U.S. nuclear plant operators identified other beyond 
design basis vulnerabilities. As a result, U.S. nuclear plant 
designs and operating practices since 9/11 are designed to 
mitigate severe accident scenarios such as aircraft impact, 
which includes the complete loss of offsite power and all 
onsite emergency power sources and loss of large areas of 
plant. The industry developed additional methods and procedures 
to provide cooling to the reactor and the used fuel pool and 
staged additional equipment at all U.S. nuclear power plant 
sites to ensure that the plants were equipped to deal with 
extreme events and nuclear plant operation staffs are trained 
to manage them.
    Regarding the final point, the United States nuclear 
industry has already started an assessment of events in Japan 
and is taking steps to ensure that United States reactors could 
respond to events that may challenge safe operation of the 
facilities. These actions include: verifying each plant's 
capability to manage severe accident scenarios developed after 
9/11 that I previously described; verifying each plant's 
capability to manage a total loss of offsite power; verifying 
the capability to mitigate flooding and the impact of floods on 
systems inside and outside the plant and performing walk downs 
and inspections of important equipment needed to respond 
successfully to extreme events like fires and floods.

                           PREPARED STATEMENT

    In conclusion, Madam Chairman, it will be some time before 
we understand the precise sequence of what happened at 
Fukushima, before we have a complete analysis of how the 
reactors performed, how equipment and fuel performed, how the 
operators performed. As we learn from this tragic event, 
however, you can rest assured that we will internalize those 
lessons and incorporate them into our designs and training and 
operating procedures.
    This concludes my oral testimony, Madam Chairman, and I 
look forward to answering questions that the committee may 
have.
    [The statement follows:]
                  Prepared Statement of William Levis
    Chairman Feinstein, Ranking Member Alexander, and members of the 
subcommittee, thank you for the opportunity to appear before you today.
    My name is William Levis. I am president and chief operating 
officer of PSEG Power which is a subsidiary of Public Service 
Enterprise Group, headquartered in Newark, New Jersey. PSEG Power is a 
merchant generating company and owns approximately 14,000 megawatts of 
electric generating capacity. We own 100 percent of the Hope Creek 
nuclear generating station, 57 percent of the Salem nuclear station, 
and 50 percent of the Peach Bottom nuclear station. PSEG Power operates 
Salem and Hope Creek; Exelon operates Peach Bottom. Salem consists of 
two pressurized water reactors; Hope Creek is a single boiling water 
reactor; the Peach Bottom station has two boiling water reactors.
    I appreciate your invitation to testify at today's hearing to 
discuss the status of the U.S. nuclear energy industry and the 
implications of the Fukushima nuclear accident on nuclear energy in the 
United States. I am testifying today on behalf of the Nuclear Energy 
Institute, the nuclear energy industry's Washington-based policy 
organization. NEI members include all companies licensed to operate 
commercial nuclear powerplants in the United States, nuclear plant 
designers, major architect/engineering firms, fuel fabrication 
facilities, materials licensees, and other organizations and 
individuals involved in the nuclear energy industry.
    My remarks will cover four major points:
    First, U.S. nuclear powerplants are safe.
    Second, safety is the U.S. nuclear energy industry's top priority.
    Third, the U.S. nuclear energy industry has a long history, over 
several decades, of continuous learning from operational events, and we 
have incorporated lessons learned into our nuclear plant designs and 
our operating practices and training. We will do the same as a result 
of the Fukushima accident.
    And fourth, the U.S. nuclear energy industry has already taken pro-
active steps to verify and validate our readiness to manage extreme 
events. We took these steps early--without waiting for clarity on the 
sequence of failures at Fukushima.
    Before I address these four points, however, let me note that the 
U.S. nuclear energy industry works very hard not to grow complacent 
about safety. This is not always easy when our 104 nuclear powerplants 
are operating well, with an average capacity factor above 90 percent 
for the last 10 years. Similarly, we cannot be complacent about the 
accident at Fukushima. I cannot tell you at this moment whether or not 
we will discover previously unknown vulnerabilities at America's 
nuclear powerplants, but I am quite confident that we will learn 
important lessons from Fukushima and identify additional steps we can 
and will take to further improve the margin of safety at our nuclear 
plants.
                   u.s. nuclear powerplants are safe
    That said, we do believe U.S. nuclear powerplants are safe. They 
are designed and operated conservatively to manage the maximum credible 
challenges appropriate to each nuclear power plant site. U.S. nuclear 
powerplants have also demonstrated their ability to maintain safety 
through extreme conditions, including floods and hurricanes and other 
natural disasters.
    I can think of no better summary of the status of U.S. nuclear 
powerplants than the one delivered by President Obama to the American 
people on March 17. Mr. Obama said: ``Our nuclear powerplants have 
undergone exhaustive study, and have been declared safe for any number 
of extreme contingencies. But when we see a crisis like the one in 
Japan, we have a responsibility to learn from this event, and to draw 
from those lessons.''
    We invest heavily in our operating plants to ensure safe, reliable 
operation. The U.S. nuclear energy industry invested approximately $6.5 
billion in 2009 in our 104 operating plants--to replace steam 
generators, reactor vessel heads and other equipment and in other 
capital projects.
    U.S. nuclear reactors are designed to withstand earthquakes, 
tsunamis, hurricanes, floods, tornadoes and other natural events equal 
to the most significant historical event or the maximum projected 
event, plus an added margin for conservatism, without any breach of 
safety systems. We have many, many examples of U.S. nuclear powerplants 
achieving safe shutdown during extreme events where offsite power was 
lost. During Hurricane Katrina in 2005, for example, the Waterford 
nuclear power plant in Louisiana shut down safely, lost all offsite 
power, and maintained safe shutdown on emergency diesel generators for 
3\1/2\ days until grid power was restored.
    For earthquakes, nuclear plants are designed and constructed to 
withstand the maximum projected earthquake that could occur in its 
area, with additional margin added. Plant earthquake-induced ground 
motion is developed using a wide range of data and review of the 
impacts of historical earthquakes up to 200 miles away. Those 
earthquakes within 25 miles are studied in great detail. This research 
is used to determine the maximum potential earthquake that could affect 
the site. Each reactor is built to withstand the respective strongest 
earthquake; for example, a site that features clay over bedrock will 
respond differently during an earthquake than a hard-rock site.
    It is important not to extrapolate earthquake and tsunami data from 
one location of the world to another when evaluating these natural 
hazards. These catastrophic natural events are very region- and 
location-specific, based on tectonic and geological fault line 
locations. The Tohoku earthquake that struck the Fukushima nuclear 
power plant occurred on a ``subduction zone,'' the type of tectonic 
region that produces earthquakes of the largest magnitude. A subduction 
zone is a tectonic plate boundary where one tectonic plate is pushed 
under another plate. Subduction zone earthquakes are also required to 
produce the kind of massive tsunami seen in Japan.
    In the continental United States, the only subduction zone is the 
Cascadia subduction zone which lies off the coast of northern 
California, Oregon, and Washington. In an assessment released last 
week, the California Coastal Commission concluded that a ``nuclear 
emergency such as is occurring in Japan is extremely unlikely at the 
State's two operating nuclear powerplants. The combination of strong 
ground motion and massive tsunami that occurred in Japan cannot be 
generated by faults near the San Onofre Nuclear Generating Station and 
the Diablo Canyon Power Plant.''
       safety is the u.s. nuclear energy industry's top priority
    This leads to my second point: Safety is the U.S. nuclear energy 
industry's top priority, and complacence about safety performance is 
not tolerated.
    We know we operate in an unforgiving environment where the 
penalties for mistakes are high and where credibility and public 
confidence, once lost, are difficult to recover.
    All of the safety-related metrics tracked by industry and the 
Nuclear Regulatory Commission (NRC) demonstrate high levels of 
excellence. Forced outage rates, unplanned safety system actuations, 
worker radiation exposures, events with safety implications, and lost-
time accident rates have all trended down, year over year, for a number 
of years.
    We can have confidence in nuclear plant safety based on those 
indicators, but we should derive even greater confidence from the 
process that produces those indicators, from the institutions we have 
created to share best practices, to establish standards of excellence 
and to implement programs that hold us to those standards.
    After the 1979 accident at Three Mile Island, the nuclear industry 
created the Institute of Nuclear Power Operations (INPO). In INPO, the 
nuclear industry--unique among American industries--has established an 
independent form of self-regulation through peer review and peer 
pressure. In fact, the President's Oil Spill Commission, in its report 
on the Deepwater Horizon accident, identified INPO as the model for 
self-regulation by the offshore oil and gas industry.
    INPO is empowered to establish performance objectives and criteria, 
and nuclear operating companies are obligated to implement improvements 
in response to INPO findings and recommendations. At its headquarters 
in Atlanta, INPO has some 350 people monitoring nuclear plant 
operations and management on a daily basis. INPO evaluates every U.S. 
nuclear plant every 2 years, and deploys training teams to provide 
assistance to companies in specific areas identified as needing 
improvement during an evaluation.
    INPO provides management and leadership development programs, and 
manages the National Academy of Nuclear Training, which conducts formal 
training and accreditation programs for those responsible for reactor 
operation and maintenance.
    Among its many activities, INPO maintains an industrywide database 
called Equipment Performance and Information Exchange (EPIX)--for --and 
all companies are required to report equipment problems into EPIX. EPIX 
catalogues equipment problems and shows, for example, expected mean 
time between failures, which allows the industry to schedule predictive 
and preventive maintenance, replacing equipment before it fails, 
avoiding possible challenges to plant safety. INPO also maintains a 
system called Nuclear Network that allows companies to report and share 
information about operating events, to ensure that an unexpected event 
at one reactor is telegraphed to all, to ensure that an event at one 
plant is not repeated elsewhere, to ensure high levels of vigilance and 
readiness.
    It may not be obvious to the outside world, but we have an enormous 
self-interest in safe operations. We preserve and enhance the asset 
value of our 104 operating plants first and foremost by maintaining 
focus on safety. Safety is the basis for regulatory confidence, and for 
political and public support of this technology.
   the u.s. nuclear energy industry has a long history of continuous 
                                learning
    My third point: The U.S. industry routinely incorporates lessons 
learned from operating experience into its reactor designs and 
operations. U.S. nuclear powerplants have implemented numerous plant 
and procedural improvements over the past 30 years. Some of these 
improvements have been designed to mitigate severe natural and plant-
centered events similar to those experienced at the Fukushima nuclear 
power plant. In addition, the equipment and procedures could be used to 
mitigate other severe abnormal events. The type of events include a 
complete and sustained loss of AC power, a sustained loss of vital 
cooling water pumps, major fires and explosions that would prevent 
access to critical equipment, hydrogen control and venting, and loss of 
multiple safety systems.
    Starting in the 1990s, U.S. nuclear powerplants developed 
guidelines to manage and mitigate these severe events that are beyond 
the normal design specifications. Plants evaluated site-specific 
vulnerabilities and implemented plant and procedural improvements to 
further improve safety. These severe accident management guidelines 
were developed in response to probabilistic risk assessments (PRAs), 
which identified several high-risk accident sequences. These guidelines 
provide operators and emergency managers with pre-determined strategies 
to mitigate these events The strategies focus on protecting the 
containment as it assumes the fuel clad and reactor cooling system are 
lost.
    I could point to many, many examples of improvements made to U.S. 
nuclear powerplants over the years in response to lessons learned from 
operational events. Let me list just a few:
  --In the 1970s, concerns were raised about the ability of the BWR 
        Mark I containment to maintain its design during an event when 
        steam is vented to the torus. Subsequently, every U.S. Operator 
        with a Mark I containment implemented modifications to 
        dissipate energy released to the suppression pool and stringent 
        supports to accommodate loads that could be generated.
  --As a result of the Three Mile Island accident, the industry made 
        significant improvements to control room configuration and 
        operator training. After that accident, which underscored the 
        need for information to be better displayed in control rooms, 
        all U.S. nuclear powerplants installed safety parameter display 
        systems. A safety parameter display system collects and 
        displays critical safety information at a workstation in the 
        control room and other locations in the plant. Information on 
        the status of key conditions, such as reactor core cooling, is 
        displayed in a clear format on a computer screen. The 
        information displayed enables the nuclear plant operators to 
        assess plant conditions rapidly and take corrective actions. 
        Before the accident at Three Mile Island, many U.S. nuclear 
        powerplants trained their operators on generic simulators 
        located offsite. Today, every U.S. nuclear reactor has a 
        reactor-specific simulator onsite, with one shift of operators 
        always in training. Finally, our current emergency preparedness 
        programs grew from the lessons we learned at TMI and we now 
        routinely drill with our State and local emergency management 
        agencies to ensure we can appropriately communicate with the 
        public during emergencies.
  --In 1988, the NRC concluded that additional Station Black Out (SBO) 
        regulatory requirements were justified and issued the Station 
        Black Out rule (10 CFR 50.63) to provide further assurance that 
        a loss of both offsite and onsite emergency AC power systems 
        would not adversely affect public health and safety. The SBO 
        rule was based on several plant-specific probabilistic safety 
        studies; operating experience; and reliability, accident 
        sequence, and consequence analyses completed between 1975 and 
        1988.
  --Since the terrorist events of September 11, 2001, U.S. nuclear 
        plant operators identified other beyond-design-basis 
        vulnerabilities. As a result, U.S. nuclear plant designs and 
        operating practices since 9/11 are designed to mitigate severe 
        accident scenarios such as aircraft impact, which include the 
        complete loss of offsite power and all onsite emergency power 
        sources and loss of large areas of the plant. The industry 
        developed additional methods and procedures to provide cooling 
        to the reactor and the spent-fuel pool, and staged additional 
        equipment at all U.S. nuclear power plant sites to ensure that 
        the plants are equipped to deal with extreme events and nuclear 
        plant operations staff are trained to manage them.
the u.s. nuclear energy industry has already taken steps in response to 
                               fukushima
    The United States nuclear energy industry has already started an 
assessment of the events in Japan and is taking steps to ensure that 
United States reactors could respond to events that may challenge safe 
operation of the facilities. These actions include:
  --Verifying each plant's capability to manage major challenges, such 
        as aircraft impacts and losses of large areas of the plant due 
        to natural events, fires or explosions. Specific actions 
        include testing and inspecting equipment required to mitigate 
        these events, and verifying that qualifications of operators 
        and support staff required to implement them are current.
  --Verifying each plant's capability to manage a total loss of offsite 
        power. This will require verification that all required 
        materials are adequate and properly staged and that procedures 
        are in place, and focusing operator training on these extreme 
        events.
  --Verifying the capability to mitigate flooding and the impact of 
        floods on systems inside and outside the plant. Specific 
        actions include verifying required materials and equipment are 
        properly located to protect them from flood.
  --Performing walk-downs and inspection of important equipment needed 
        to respond successfully to extreme events like fires and 
        floods. This work will include analysis to identify any 
        potential that equipment functions could be lost during seismic 
        events appropriate for the site, and development of strategies 
        to mitigate any potential vulnerabilities.
    Until we understand clearly what has occurred at the Fukushima 
Daiichi nuclear powerplants, and any consequences, it is difficult to 
speculate about the long-term impact on the U.S. nuclear energy 
program. The U.S. nuclear industry, NRC, the Institute of Nuclear Power 
Operations, the World Association of Nuclear Operators and other expert 
organizations in the United States and around the world will conduct 
detailed reviews of the accident, identify lessons learned (both in 
terms of plant operation and design), and we will incorporate those 
lessons learned into the design and operation of U.S. nuclear 
powerplants. When we fully understand the facts surrounding the event 
in Japan, we will use those insights to make nuclear energy even safer.
    In the long-term, we believe that the U.S. nuclear energy 
enterprise is built on a strong foundation:
  --Reactor designs and operating practices that incorporate a defense-
        in-depth approach and multiple levels of redundant systems;
  --A strong, independent regulatory infrastructure, which includes 
        continuous assessment of every U.S. reactor by the NRC, with 
        independent inspectors permanently onsite and additional 
        oversight from NRC regional offices and headquarters;
  --A transparent regulatory process that provides for public 
        participation in licensing decisions; and
  --A continuing and systematic process to identify lessons learned 
        from operating experience and to incorporate those lessons.
    In conclusion, Madam Chairman, let me leave you with a short-term 
and a longer-term perspective.
    In the short term, all of us involved with the production of 
electricity from nuclear energy in the United States stand in awe of 
the commitment and determination of our colleagues in Japan, as they 
struggle to bring these crippled reactors to safe shutdown.
    In the longer term, it will be some time before we understand the 
precise sequence of what happened at Fukushima, before we have a 
complete analysis of how the reactor performed, how equipment and fuel 
performed, how the operators performed. As we learn from this tragic 
event, however, you may rest assured that we will internalize those 
lessons and incorporate them into our designs and training and 
operating procedures.

    Senator Feinstein. Thank you very much, Mr. Levis.
    Mr. Lochbaum.
STATEMENT OF DAVID LOCHBAUM, DIRECTOR, NUCLEAR SAFETY 
            PROJECT UNION OF CONCERNED SCIENTISTS
    Mr. Lochbaum. Good morning, Madam Chairman and Ranking 
Member Alexander. I appreciate this opportunity to travel up 
here from Chattanooga, Tennessee to provide my testimony today.
    Among the many challenges workers faced at Fukushima 
Daiichi Nuclear Plant was a need to provide cooling for 
radiated fuel in seven onsite spent-fuel pools. Irradiated fuel 
is curious material. When inside the core of an operating 
reactor irradiated fuel is so hazardous that the plant has an 
array of emergency systems whose sole purpose is to protect the 
fuel from damage by overheating.
    Some of these emergency systems feature motor-driven pumps, 
while some feature stream-driven pumps. These emergency core 
cooling systems can be powered by the electrical grid, by the 
emergency diesel generators and in some cases by onsite 
batteries. The diversity and redundancy of these emergency core 
cooling systems provides high, but not absolute, assurance that 
the irradiated fuel will be adequately cooled. If the highly 
reliable emergency core cooling systems fail, the irradiated 
fuel in the reactor core is encased within strong concrete 
walls, 4- to 5-feet thick. This structure provides additional 
assurance that the public is protected.
    After being discharged from the reactor core the irradiated 
fuel awaits transfer to a Federal repository which does not 
exist. The United States has spent more than $10 million--$10 
billion on a proposed repository at Yucca Mountain in Nevada. 
DOE faces an immense engineering challenge siting a repository 
because that location must isolate the irradiated fuel from the 
environment for at least 10,000 years into the future or merely 
42 times longer than we have been in the United States of 
America.
    Between these two dangerous endpoints irradiated fuel sits 
in temporary spent-fuel pools with almost no protection. For 
unfathomable reasons, irradiated fuel is considered benign 
after it is taken out of the reactor, but before it is placed 
in a repository. Today tens of thousands of irradiated fuel 
sits in spent-fuel pools across America. At many sites near--
there is nearly 10 times as much irradiated fuel in a spent-
fuel pool as in reactor core. These pools are not cooled by an 
array of highly reliable emergency systems, not powered by the 
grid, diesel generators or batteries. Instead the pools are 
cooled by one regular system, sometimes backed up by one 
alternate make up system.
    The spent-fuel pools are not housed within robust concrete 
containment structures designed to protect the public from the 
radioactivity they contain. Instead the pools are often housed 
in buildings with sheet metal siding like that in a Sears 
storage shed. I have nothing against the quality of Sears 
storage sheds, but they are not suitable for nuclear waste 
storage.
    The irrefutable bottom line is that we have utterly failed 
to proper manage the risk from irradiated fuel stored at our 
Nation's nuclear power plants. We can and must do better.
    There are two readily available measures to better manage 
that risk. First, accelerate the transfer of spent fuel from 
the pools to dry cask storage. And second upgrade the emergency 
procedures for spent-fuel pool accidents. Currently, we fill 
the pools to capacity and put the overflow into dry cask. This 
keeps the pools nearly filled with irradiated fuel, maintaining 
the risk about as high as you can achieve. A better strategy 
would be to reduce the inventory of irradiated fuel stored in 
spent-fuel pools, to only that amount discharged from the 
reactor in the last 5 or 6 years.
    Less irradiated fuels in the pools results in a lower heat 
load in the pools, the lower heat load gives workers more time 
to recover cooling or re-establish the water inventory reducing 
the likelihood of fuel damage. And if fuel is damaged, for 
whatever reason, having less of it in the pools means the 
radioactive cloud emitted from that pool is much, much smaller, 
posing much less harm to people down wind.
    Following the 1979 accident at Three Mile Island, the 
reactor owner significantly upgraded emergency procedures. 
Prior to that accident the procedures and training relied on 
the operators diagnosing what had happened and taking steps to 
mitigate that accident. If the miss--if the operators 
misdiagnosed the accident, those procedures could actually 
direct them to take the wrong steps for the accident they 
actually faced. The revamped Emergency Procedures Guide, the 
operators response to abnormally high pressure or an unusual 
low water level, without undue regard for what caused those 
abnormal conditions, this--these upgraded emergency procedures 
and training are significant improvements over the pre-TMI 
days.
    But, no comparable procedures and training would help the 
operators respond to spent-fuel pool accidents. It is 
imperative that comparable emergency procedures be provided for 
spent-fuel pool accidents to derive the same safety benefits 
that we derive from improved procedures for reactor core 
accidents.
    Thank you.
    Senator Feinstein. Thank you very much.
    Gentlemen, I'm certainly not a nuclear expert, you are far 
more so. The first time I'd been in a nuclear plant was this 
past week. I visited the two in California, and spent the whole 
day doing it. What jumps right out at you is the difference 
between the containment of the core, the location of that 
spent-fuel pool and the dry cask situation.
    Here's the question. There is a major study, apparently, by 
Bob Alvarez at the Nuclear Policy Institute for Policy Studies 
on the use of dry cask storage at nuclear power plants. He 
contends that dry cask has the potential to reduce the overall 
risk associated with reactor storage of spent fuel. So let me 
ask each of you, from your viewpoint, why does industry 
practice appear to be to keep the spent fuel in pool much 
longer than the required 5 to 7 years? Why wouldn't they move 
it aggressively to dry cask?
    Dr. Moniz.
    Dr. Moniz. Thank you, Madam Chairman. First, I think at a 
very high level what I would say is that from the history of 
our nuclear power program I would say the storage, storage of 
spent fuel, between if you like the reactor and the presumed 
repository has been an afterthought. It has not really been 
part of our serious policy discussion about fuel cycle design. 
As a result, I think what one sees are in some sense, what may 
be very logical to a plant operator, operational decisions. So 
as David said, the dry cask storage is viewed more as the 
overflow when the pool can't handle any more densification. So 
I think what we need to do is to stand back, really ask what is 
our whole integrated system about storage and disposal. And 
that is exactly what I would call for. In fact, I think the 
move to dry cask is essential, furthermore for a set of 
reasons, I believe we should really start thinking hard about 
consolidated storage, presumably at Federal reservations to 
solve a host of problems.
    Senator Feinstein. Thank you. I agree with you.
    Mr. Levis.
    Mr. Levis. Thank you, Madam Chairman. And certainly the 
topic of used fuel and how we should dispose of it is I think 
one worthy of significant discussion. And I would not 
characterize the industry having a reluctance of putting used 
fuel bundles into cask storage; I would say one of the 
impactable items is really a lack of a national strategy and 
policy on what we are going to do with it.
    And if I could just offer one thought in that particular 
area, we want to limit the number of times we have to handle 
used fuel and so we want to be able to take it out of the pool 
once, put it into cask and have it be able to go where it can 
go. Not all casks are designed for transportation, for example. 
So if in fact our policy is going to be to store it onsite 
there for a long period of time, we want to make sure we have 
casks that can do that. If our policy is to put it in a cask 
that can be transported, we want to make sure it can be in a 
cask that can do that.
    So, you know, we were essentially planning for what we 
believe the direction of the country was headed. And it is not 
a reluctance to do this; we know how to do it. I would ask, if 
we want to speed that process up, that we consider things like 
supply chain availability and these sorts of things and making 
sure we have the, you know, the training and qualification for 
the people that need, you know, to do this sort of activity. 
But, I wouldn't characterize it as reluctance, you know, on our 
part to do it, but rather lacking what the national plan is and 
how we can develop our plan to match up with that.
    Senator Feinstein. Are you saying you believe, as an 
operator, we would be better off with a Federal policy that 
essentially set the handling of waste?
    That we should have either regional repositories or a 
national repository?
    Mr. Levis. Yes, what I was referring to, Madam Chairman, is 
what is the ultimate disposition of the used fuel, where will 
it go and what the most efficient way to get it there is.
    Senator Feinstein. Thank you.
    Mr. Lochbaum.
    Mr. Lochbaum. I would agree with the point that spent-fuel 
storage onsite was an afterthought. And I as think I agree with 
the industry position that it has been a shifting thought. The 
Federal Government keeps saying that we will take spent fuel on 
such and such a date and then that date slips by quite a bit. 
So it is difficult to base a decision on how best to store 
spent fuel onsite when the parameters keep shifting year to 
year. So I think I agree with Bill Levis that it has not been 
reluctance, it has been that shifting paradigm that keeps 
causing problems.
    Senator Feinstein. Dr. Moniz.
    Dr. Moniz. May I just add a point, because again I totally 
agree with Bill. It is again, it is the absence of a system 
that allows rational decisions. As Bill mentioned something 
that is very important, we don't have a consistent policy on 
these--literally just on things of sizes of casks, which is 
quite important.
    But, if I may go back, you invited comments on the earlier 
panel, just to comment on the issue of the 100-year storage 
which Chairman Jaczko mentioned.
    We think that there is a good case to be made for the 
integrity of 100-year storage, but the reality is it is based 
on extraordinarily skimpy database. And this is an example of 
the kind of R&D priority that we should have been having and I 
think now is being revived, pre-Fukushima, now it will be even 
more important.
    And this gets to Bill's point about handling the fuel. 
While it may be that the fuel can be contained for 100 years, 
say in dry cask storage, but what about when you move it then? 
Will movement compromise integrity? These are the kinds of 
issues we need to have a system view of. And, I would say this 
is one of the many reasons why I personally favor consolidated 
storage, because if you bring this fuel together and there 
aren't any issues you can have, at that site, the 
infrastructure to deal with those problems and the spent fuel, 
if there are any after 80, 90, or 100 years.
    Senator Feinstein. Thank you. Senator Alexander.
    Senator Alexander. Dr. Moniz, if the Nation can't agree on 
a single repository, what makes you think it can agree on more 
than one for consolidated sites?
    Dr. Moniz. Thank you, Senator Alexander. First of all, I 
want to stress that the consolidated storage sites I am talking 
about are not necessarily repositories.
    Senator Alexander. Well, but they are places where you 
would haul the spent fuel for storage.
    Dr. Moniz. That is correct, so----
    Senator Alexander. So you would have the same issues of 
local support, wouldn't you?
    Dr. Moniz. Certainly and by the way, and I strongly support 
the idea that we should--we have to find public support in 
regions to move things. Now, I think having a dry cask storage 
facility is different from a repository. I don't claim it is 
easy; I am not Pollyannaish about it. It is tough.
    Senator Alexander. Yes, I know.
    Dr. Moniz. But also, I just inferred, for example, such a 
location would have, for example, a substantial research and 
testing infrastructure----
    Senator Alexander. Yes.
    Dr. Moniz [continuing]. Around the spent fuel, that is the 
kind of design that we need, I believe.
    Senator Alexander. Yes. Would you agree that Dr. Chu's plan 
and the attitude of others is that we could safely store our 
used nuclear fuel onsite, while for the next 10 or 20 years we 
develop aggressive R&D to try and find a better way to use and 
recycle nuclear fuel? Do you think that is both wise and safe 
to do?
    Dr. Moniz. Yes, sir. First, I would say that we don't see 
any large differentiator, technically, on safety or security or 
costs of distributed storage versus centralized storage. There 
are other system reasons why I prefer the centralized storage. 
Now----
    Senator Alexander. But what my question really is, while we 
do the R&D to get to that point----
    Dr. Moniz. Yes, now on the----
    Senator Alexander [continuing]. Is it safe to store it 
onsite?
    Dr. Moniz. Yes, it is. And now on terms of the R&D program, 
in our report last year we put forward exactly that kind of a 
program. And I should add, it is based upon something that 
Secretary Lyons inferred, that we do not believe that current 
reprocessing approaches, frankly, have merit, but we need to 
develop, possibly, more-advanced approaches.
    Senator Alexander. I want to ask you two more questions. 
The first is about radiation. We see on television news that 
trace amounts of radiation have been discovered in the United 
States as the result of the Japanese accident, yet testimony in 
the previous panel was we shouldn't worry about that. Why is 
that true?
    Dr. Moniz. Well, I will give a brief answer; maybe David 
will have more specifics on it. The information I have received 
is that the measurements in this country, including in my home 
State, are orders of magnitude below what are considered to be 
levels of concern.
    Senator Alexander. Well, is it true that every day we 
receive some radiation naturally from----
    Dr. Moniz. Yes, sir. In the United States the average 
citizen received about 300 millirem per year, which is let's 
say one-half of a CAT scan.
    Senator Alexander. And maybe another 300 from other----
    Dr. Moniz. Yes, and----
    Senator Alexander [continuing]. From CAT scans and----
    Dr. Moniz. On average, yes.
    Senator Alexander. And that it poses no harm for a person 
to receive 500 millirems----
    Dr. Moniz. Well, that is getting into an area which I am 
certainly not an expert. There is a lot of argument going on 
about so-called linear hypotheses and collective doses to the 
public. But my view is that it seems to be essentially no harm.
    Senator Alexander. Let me conclude with a question that you 
are an expert on. You mentioned the work that MIT and Oak Ridge 
are doing in modeling nuclear power plants. As I understand it, 
that is based upon the supercomputing capacity there and the 
R&D capacity there that this subcommittee and this Congress and 
this President are asked to fund on an annual basis. How 
important is the United States' ability to be among the leaders 
in the world in supercomputing to such programs as you are 
working on today to help us understand how to keep nuclear 
power plants safe?
    Dr. Moniz. A large-scale modeling and simulation applied to 
complex engineered systems is something the DOE, first of all, 
has been a leader in for a long time. It is something the 
country really should lead for very important, I believe, 
impacts on our manufacturing capability, our regulatory 
capability, those are the things that we are trying to do with 
this initial hub focused on LWR simulation.
    Senator Alexander. Thank you, Madam Chair.
    Senator Feinstein. Thank you very much.
    You heard me ask the chairman about the option of an 
independent assessment of nuclear safety in our country. Say 
the National Academy of Science put together an assessment in 
light of what has happened at Daiichi and Daini and compared 
pressured water versus boiling water reactors, spent-fuel pools 
stored at reactor sites right now forever, because there is no 
other plan, and some in dry casks. Do you believe such an 
assessment would be a good idea?
    Let me begin with you Mr. Lochbaum, what do you think of 
that idea?
    Mr. Lochbaum. Well, an independent assessment is never a 
bad thing, but I think equally important or more important 
would be--the NRC is going to undertake the 90-day review and 
then a longer-term review. And they are going to come up with a 
lot of lessons learned that will be informed by what the work 
the IAEA is doing and the work that the industry is doing and 
the work that the independent assessment would do. I think it 
is vitally important for the Senate or the Congress more 
broadly, to look at the results from the NRC's review, what 
they have identified and their schedule for implementing that.
    If they need more budget in order to make some of those 
things happen on a timelier basis that needs to happen. Because 
the best plan in the world doesn't really help anybody until it 
is implemented. So I think the NRC will come up with a good 
list of things to do to make our plants less vulnerable to that 
kind of thing and it is important that they get to the end of 
that effort as quickly as possible. So I think the Congress can 
help the NRC set its priorities and get there as expeditiously 
as possible.
    Senator Feinstein. Thank you.
    Mr. Levis.
    Mr. Levis. Madam Chairman, the industry will be looking at 
their own assessment of this event, you know, coordinated 
through INPO in concert with the World Association of Nuclear 
Operators and obviously the NRC will do its review 
independently. You know, we are committed to the absolute 
safety of our plants, we welcome any and all assessments and 
certainly an independent assessment would be fine, just to make 
sure we got it right.
    Senator Feinstein. Thank you. Thank you.
    Dr. Moniz.
    Dr. Moniz. I would agree. I think it is--it would be 
unrealistic to think that we could move forward, frankly, 
without some kind of major assessment and I believe an 
independent assessment will be called for. What that means 
exactly, independent and who would be the independent body, is 
not entirely clear, in my view.
    Senator Feinstein. Well, would the National Academy of 
Science (NAS) be able to put that kind of body together, which 
is what they generally do when they look at something.
    Dr. Moniz. Yes, I think the NAS is certainly an option. 
Sometimes they move more slowly than one would like, but I 
think if they--in my view perhaps with a strong connection to 
an outstanding technical group, like INPO for example, could be 
a good way of putting together a review.
    Senator Feinstein. Thank you, anything else, Senator 
Alexander.
    Senator Alexander. No. I'd like to thank the witnesses for 
very helpful statements that you made and thank the chairman 
for looking into this. As I said at the beginning, it is very 
important that we talk about nuclear power. You know, nuclear 
power is such a complex mechanical operation that it makes 
sensational television news whenever there is a problem. Even 
though hundreds of thousands of people in Japan are homeless 
and a thousand bodies washed up on a beach one day, the news 
most days was about what was happening at the nuclear reactors.
    And I think it is important that as a country we simply 
learn how to honestly ask questions and continuously improve 
what we are doing. At the same time, lots of people die every 
year from the pollution from coal plants that isn't collected 
in pollution control systems and from other forms of energy 
production. So I think it is important that we keep this all in 
perspective and we recognize that the safety record for the 
generation of nuclear power in the United States really 
couldn't be better, in terms of harm to people. It can always 
be improved. There are important lessons from Three Mile 
Island, but I have not heard anyone yet contradict my statement 
that no one was injured at Three Mile Island.
    So this is helpful testimony and I think, Madam Chairman, 
the most important thing we can do is advance the research on 
used nuclear fuel, on SMRs, on any other safety enhancements 
that might be recommended that would continue to help us 
produce large amounts of reliable, low-cost, clean electricity 
of which I think nuclear power is an important component.
    Senator Feinstein. Well, thank you, Senator.
    Of course, I come from a State that is in the ring of fire. 
The ring of fire has had some very big earthquakes around it. 
One of the things I learned from the USGS was that a section of 
the sea bottom, as large as the State of Maryland, moved in a 
subduction under the plate and that was what launched the 
tsunami which was just amazing for me to hear. I think no one 
ever thought, in the design process, that that kind of thing 
would happen.
    Let me ask, do each of you have a last thought for us? 
Anything you would like to say and then we will conclude 
rapidly.
    Mr. Levis.
    Mr. Levis. I think the point that you make about what is it 
that we don't know is obviously something we challenge 
ourselves with every day, which is really the reason why 
these--some of these procedures that we refer to as severe 
accident management guides were developed, you know, a little 
over a decade ago, so that we could respond, you know, to the 
consequence of the event, versus trying to figure out what the 
event is. That means if the heat sink is lost, what would you 
do? If you lost emergency AC power what would you do?
    So you know, we think--we ask ourselves continually those 
what if questions and what have we missed here. And I am sure 
there will be some significant learning out of here that we can 
apply to our plant designs and operating practices so we can 
improve the safety of our facilities.
    Senator Feinstein. Thank you. Thank you. I was with the CEO 
of Southern California Edison and he said the same thing you 
did that what we know is what we know and we have to challenge 
people with what we don't know. I very much agree with that. 
Dr. Moniz or Mr. Lochbaum.
    Mr. Lochbaum. I would just say as the--obviously the event 
in Japan was tragic. Even if there were no lives lost from the 
radiation that has been released from the damaged cores, that 
was a multi-billion asset that became a multi-billion liability 
very quickly. So we need to, both for the economic cost of that 
accident, but also any human cost, we need to learn as much as 
we have. If the industry is going to do it, the NRC is going to 
do it and we--as tragic as the accident will be, it would be 
shame on us if we don't reap the full benefits of lessons 
learned from that.
    Senator Feinstein. Thank you. Dr. Moniz.
    Dr. Moniz. Thank you, Madam Chairman.
    Perhaps I could make a few comments about R&D programs, 
that is obviously something under the direct purview of this 
subcommittee and you will be considered it. Just a note, that 
again last year we issued a report on the future of the nuclear 
fuel cycle. I just wanted to note some of the areas that we 
noted for R&D, viewing these as real gaps, historically, in the 
program.
    Life extension for LWRs and technologies, some new 
technologies like fuel, cladding which we mentioned earlier, 
for safety margins, advanced fuel development for a LWR. The 
modeling and simulation is part of the way of verifying and 
quantifying uncertainties--dry cask storage life extension--
other concepts include enhanced waste forms for storage and 
disposal. What I emphasize is that this is way before 
Fukushima, this was last year, that these kinds of technologies 
which are about the work horse of our nuclear fleet, LWRs, has 
been neglected and I believe this should be a very strong 
priority for R&D.
    We did have, in addition to this, something that Senator 
Alexander referred to, which was also a program for the future 
possible closed fuel cycles that might make sense for reasons 
of waste management or resource extension. But our view as the 
number one priority, strategic view is if nuclear power is to 
play an important role in the next few decades it is these 
things we need: the storage technologies, the new fuels, the 
new cladding with better safety margins, et cetera. So I would 
urge, in your consideration of the DOE budget, that these be 
given a lot of attention. Thank you.
    Senator Feinstein. You make a lot of sense. Senator 
Alexander.
    Senator Alexander. Madam Chair, may I ask permission to 
include in the record an article from The Guardian of London on 
Sunday by one of the leading environmentalists in the country 
which is headlined, ``Why Fukushima Made Me Stop Worrying and 
Love Nuclear Power''. His comment was, ``Atomic energy has just 
been subjected to one of the harshest possible tests and the 
impact on people and the planet has been small. The crisis at 
Fukushima has converted me to the cause of nuclear power.''
    Senator Alexander. This is----
    Senator Feinstein. Oh my goodness.
    Senator Alexander. Well, the----
    Senator Feinstein. The effect has been small?
    Senator Alexander. Of the reactors.
    Senator Feinstein. On the reactor.
    Senator Alexander. Of the----
    Senator Feinstein. But the affect on the country, on the 
people, on the economy, on the sea bed is enormous.
    Senator Alexander. The effect of the reactors. These are 
his comments. But he reviews, in his article, that the disaster 
would weigh more heavily, he said, if there were less harmful 
alternatives. He goes through all the other ways of producing 
energy and concludes atomic power has to be part of the mix.
    And in any event, this is just one person who is an 
environmentalist who had that unusual reaction to the disaster.
    Senator Feinstein. Thank you, we will put it in the record.
    [The information follows:]

               [From the guardian.co.uk, March 21, 2011]

       Why Fukushima Made Me Stop Worrying and Love Nuclear Power
                          (By George Monbiot)
    You will not be surprised to hear that the events in Japan have 
changed my view of nuclear power. You will be surprised to hear how 
they have changed it. As a result of the disaster at Fukushima, I am no 
longer nuclear-neutral. I now support the technology.
    A crappy old plant with inadequate safety features was hit by a 
monster earthquake and a vast tsunami. The electricity supply failed, 
knocking out the cooling system. The reactors began to explode and melt 
down. The disaster exposed a familiar legacy of poor design and corner-
cutting. Yet, as far as we know, no one has yet received a lethal dose 
of radiation.
    Some greens have wildly exaggerated the dangers of radioactive 
pollution. For a clearer view, look at the graphic published by 
xkcd.com. It shows that the average total dose from the Three Mile 
Island disaster for someone living within 10 miles of the plant was \1/
625\ of the maximum yearly amount permitted for U.S. radiation workers. 
This, in turn, is half of the lowest 1-year dose clearly linked to an 
increased cancer risk, which, in its turn, is \1/80\ of an invariably 
fatal exposure. I'm not proposing complacency here. I am proposing 
perspective.
    If other forms of energy production caused no damage, these impacts 
would weigh more heavily. But energy is like medicine: if there are no 
side-effects, the chances are that it doesn't work.
    Like most greens, I favour a major expansion of renewables. I can 
also sympathise with the complaints of their opponents. It's not just 
the onshore windfarms that bother people, but also the new grid 
connections (pylons and power lines). As the proportion of renewable 
electricity on the grid rises, more pumped storage will be needed to 
keep the lights on. That means reservoirs on mountains: they aren't 
popular, either.
    The impacts and costs of renewables rise with the proportion of 
power they supply, as the need for storage and redundancy increases. It 
may well be the case (I have yet to see a comparative study) that up to 
a certain grid penetration--50 percent or 70 percent, perhaps--
renewables have smaller carbon impacts than nuclear, while beyond that 
point, nuclear has smaller impacts than renewables.
    Like others, I have called for renewable power to be used both to 
replace the electricity produced by fossil fuel and to expand the total 
supply, displacing the oil used for transport and the gas used for 
heating fuel. Are we also to demand that it replaces current nuclear 
capacity? The more work we expect renewables to do, the greater the 
impact on the landscape will be, and the tougher the task of public 
persuasion.
    But expanding the grid to connect people and industry to rich, 
distant sources of ambient energy is also rejected by most of the 
greens who complained about the blog post I wrote last week in which I 
argued that nuclear remains safer than coal. What they want, they tell 
me, is something quite different: we should power down and produce our 
energy locally. Some have even called for the abandonment of the grid. 
Their bucolic vision sounds lovely, until you read the small print.
    At high latitudes like ours, most small-scale ambient power 
production is a dead loss. Generating solar power in the UK involves a 
spectacular waste of scarce resources. It's hopelessly inefficient and 
poorly matched to the pattern of demand. Wind power in populated areas 
is largely worthless. This is partly because we have built our 
settlements in sheltered places; partly because turbulence caused by 
the buildings interferes with the airflow and chews up the mechanism. 
Micro-hydropower might work for a farmhouse in Wales, but it's not much 
use in Birmingham.
    And how do we drive our textile mills, brick kilns, blast furnaces 
and electric railways--not to mention advanced industrial processes? 
Rooftop solar panels? The moment you consider the demands of the whole 
economy is the moment at which you fall out of love with local energy 
production. A national (or, better still, international) grid is the 
essential prerequisite for a largely renewable energy supply.
    Some greens go even further: why waste renewable resources by 
turning them into electricity? Why not use them to provide energy 
directly? To answer this question, look at what happened in Britain 
before the industrial revolution.
    The damming and weiring of British rivers for watermills was small-
scale, renewable, picturesque and devastating. By blocking the rivers 
and silting up the spawning beds, they helped bring to an end the 
gigantic runs of migratory fish that were once among our great natural 
spectacles and which fed much of Britain--wiping out sturgeon, lampreys 
and shad, as well as most sea trout and salmon.
    Traction was intimately linked with starvation. The more land that 
was set aside for feeding draft animals for industry and transport, the 
less was available for feeding humans. It was the 17th-century 
equivalent of today's biofuels crisis. The same applied to heating 
fuel. As EA Wrigley points out in his book Energy and the English 
Industrial Revolution, the 11m tonnes of coal mined in England in 1800 
produced as much energy as 11m acres of woodland (one-third of the land 
surface) would have generated.
    Before coal became widely available, wood was used not just for 
heating homes, but also for industrial processes: if half the land 
surface of Britain had been covered with woodland, Wrigley shows, we 
could have made 1.25m tonnes of bar iron a year (a fraction of current 
consumption) and nothing else. Even with a much lower population than 
today's, manufactured goods in the land-based economy were the preserve 
of the elite. Deep green energy production--decentralized, based on the 
products of the land--is far more damaging to humanity than nuclear 
meltdown.
    But the energy source to which most economies will revert if they 
shut down their nuclear plants is not wood, water, wind or sun, but 
fossil fuel. On every measure (climate change, mining impact, local 
pollution, industrial injury and death, even radioactive discharges) 
coal is 100 times worse than nuclear power. Thanks to the expansion of 
shale gas production, the impacts of natural gas are catching up fast.
    Yes, I still loathe the liars who run the nuclear industry. Yes, I 
would prefer to see the entire sector shut down, if there were harmless 
alternatives. But there are no ideal solutions. Every energy technology 
carries a cost; so does the absence of energy technologies. Atomic 
energy has just been subjected to one of the harshest of possible 
tests, and the impact on people and the planet has been small. The 
crisis at Fukushima has converted me to the cause of nuclear power.

    Senator Feinstein. It is unusual.
    Your thoughts have been very helpful. I would just ask that 
if you have other thoughts, please communicate them to this 
subcommittee because Dr. Moniz is right, this R&D program is 
directly under our jurisdiction and we certainly need to 
consider the things that you mentioned and we will.

                     ADDITIONAL COMMITTEE QUESTIONS

    At this time I would like to ask the members of the 
subcommittee to please submit any questions they have for the 
witnesses for inclusion in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Dr. Peter B. Lyons
            Questions Submitted by Senator Mary L. Landrieu
    Question. Can you please explain what a passive reactor is and why 
it is or is not considered safer than the boiling water or pressurized 
water reactors? For instance, it is my understanding that high-
temperature, gas-cooled reactors (HTGRs) that are currently being 
developed under the Department of Energy's (DOE) Next Generation 
Nuclear Plant Program have natural safety features that ensure any 
significant radiation could never be released to the public no matter 
how serious the accident. Is this true and would you please describe 
why these reactors are so safe? In addition, what is DOE doing to 
promote the use of technology that utilizes a passive reactor?
    Answer. The current fleet of reactors utilizes engineered safety 
features characterized by redundant and diverse systems to deliver 
cooling water to the reactor core and remove heat from the primary 
containment. The new light water reactor (LWR) designs, including small 
modular reactors, are even safer than the current fleet of reactors 
since they make use of passive safety features that rely on natural 
forces (such as gravity and natural circulation) rather than engineered 
safety features and emergency power supplies. HTGRs move beyond these 
passive safety features by incorporating additional inherent physical 
characteristics that enhance safety. These features include the use of 
advanced, coated particle fuel that retains the nuclear fission product 
materials during all design basis and severe accidents. HTGR-coated 
particle fuel operates at lower power densities (approximately 6 watts 
per cubic centimeter) than typical LWR fuel (60-100 watts per cubic 
centimeter) so that there is a reduced probability of core fuel damage 
and radioactive fission product releases. During severe accidents the 
HTGR reactor can be cooled passively without the use of active heat 
transfer systems that rely on electrical power, operator actions, or 
any active control systems. Some engineers have referred to these 
plants as being inherently safe.
    Question. What has and will the NRC do to ensure that our U.S. 
reactors are safe and are prepared for the worst case scenario?
    Answer. The NRC's efforts to assure safety of commercial nuclear 
reactors begin with the licensing process. Each operating reactor in 
the United States underwent a rigorous design review before receiving a 
license. The applicants had to satisfy NRC safety requirements to 
assure that the design of the reactors and the associated emergency 
equipment, such as emergency cooling water pumps, would safely respond 
to a variety of adverse events.
    The NRC also licenses the reactor operators who provide the 
immediate response to any plant event. There are significant training 
and testing requirements for the operators, which include demonstrating 
knowledge of the appropriate response to accidents. In addition, the 
emergency planning requirements for power reactors are based on a 
spectrum of accidents, including severe accidents.
    On a day-to-day basis, inspections are done by onsite ``resident'' 
inspectors and visiting inspectors from the NRC's four regional offices 
and the NRC's headquarters. These inspections are part of the NRC's 
``Reactor Oversight Process'' and assess how the reactor and utility 
staff perform in areas such as maintenance, engineering, operations, 
security, radiation protection, and emergency planning. Through the 
inspections, the NRC determines whether the licensee is operating in 
accordance with its license and that the plant systems will be capable 
of performing their safety functions in response to an event.
    Following recent events in Japan, the NRC established a senior 
level task force to conduct a methodical and systematic review of NRC 
processes and regulations to determine whether the agency should make 
additional improvements to our regulatory system and make 
recommendations to the NRC for its policy direction. This task force 
will also identify a framework and topics for a longer-term review and 
assessment.
    In addition, NRC inspectors are assessing licensee activities and 
actions concerning readiness to respond to an event similar to the 
Fukushima Daiichi nuclear plant incident. To direct the inspections, 
the NRC issued a Temporary Instruction (TI) on March 23, 2011 to its 
inspectors. Using this guidance, the NRC's inspectors assessed the 
licensee's capability to mitigate conditions that result from ``beyond 
design basis'' events typically bounded by security threats, loss of 
all onsite electricity (i.e. ``station blackout''), and flooding 
events. On May 13, 2011, the NRC began issuing reports to the Nation's 
104 operating nuclear power plants regarding inspections of the plants' 
abilities to deal with power losses or damage to large areas of a 
reactor site following extreme events. Our inspectors found all the 
reactors would be kept safe even in the event their regular safety 
systems were affected by these events, although a few plants have to do 
a better job maintaining the necessary resources and procedures.
    U.S. commercial nuclear power reactors have Emergency Operating 
Procedures' (EOPs) to direct actions in response to events and plant 
conditions. In response to an industry initiative in the 1990s, the 
U.S. industry developed Severe Accident Management Guidelines'' (SAMGs) 
to address situations beyond the EOPs. During the NRC's task force's 
deliberations thus far, the importance of SAMGs has been highlighted. 
Thus, the NRC issued on April 29, 2011, a new TI to confirm that the 
SAMGs are available and being maintained, and determine the nature and 
extent of licensee implementation of SAMG training.
    Question. I know that 23 of the United States reactors are a 
General Electric Mark 1 design, the same design as at the Fukushima 
Daiichi facility in Japan. Yet, I believe each of these 23 facilities 
has been retrofitted and modified to address venting and other concerns 
with this reactor design. Can you please walk me through why the 
modifications were needed at the U.S. facilities? Can you confirm that 
all of these reactors have been modified? Does this make our reactors 
safer than the reactors in Japan?
    Answer. In the 1980s, the NRC staff completed a determination of 
what actions should be taken to reduce the vulnerability of the 
original Mark I containments to severe accident challenges. This work 
is documented in NRC's Generic Letter 89-16. The Mark I containment has 
a light-bulb shaped ``drywell'' in which the reactor pressure vessel is 
located; below the drywell, there is a donut or torus-shaped 
``wetwell'' partially filled with water (i.e., the ``suppression 
pool''). There are pipes that connect the drywell to the suppression 
pool. If there is damage to the reactor pressure vessel or piping 
connected to it, the drywell will fill with steam and the resulting 
pressure will force the steam into the suppression pool. The water in 
the suppression pool will cool and condense the steam, thus reducing 
the pressure in the containment drywell and wetwell. Even before the 
installation of the hardened wetwell vents, the NRC staff recognized 
that under emergency conditions the plant's operators might vent the 
wetwell to avoid exceeding the maximum containment pressure limits. 
However, the previous methods of venting used nonpressure retaining 
pathways, and thus could have made vital areas of the plant 
inaccessible and potentially unsafe during and after venting. 
Therefore, the NRC directed the staff to pursue enhancements to the 
Mark I containments, and in particular to approve installation of a 
hardened wetwell vent for plants that elect to incorporate this 
improvement. For the remaining plants, the staff was directed to 
initiate plant-specific backfit analyses for each of the Mark I plants 
to evaluate the efficacy of requiring the installation of hardened 
wetwell vents.
    Given a scenario of a long-term loss of decay heat removal, the 
staff found that use of reliable containment venting and procedures 
could reduce the chance of a core melt accident by a factor of 10, and 
that the vent would also reduce the likelihood of a core melt accident 
during other events like a station blackout. Hardened wetwell vents are 
designed to allow operators to prevent containment failure by 
controlled reduction of containment pressure during severe accidents. 
Venting from the wetwell allows for significant reduction in the 
release of radioactive airborne contamination by the scrubbing action 
of the suppression pool water. The vent was designed to discharge away 
from the secondary containment building, better supporting subsequent 
operator actions there. The vent capability was also designed to allow 
release of combustible gas (hydrogen resulting from the reaction of 
fuel cladding with coolant at elevated temperatures) to prevent 
containment failure.
    No NRC orders were issued for installing a hardened wetwell vent, 
and all modifications made were voluntary. Licensees were allowed to 
justify not installing the hard pipe vent based on plant unique 
configuration and circumstances. All 23 BWR Mark I plants either 
installed the modification described in the generic letter (22 plants), 
or justified use of existing plant safety features (1 plant). 
Installation of the vent was designed to improve safety of the plants 
in the United States.
    Other improvements in these containment and safety systems were 
also studied and implemented from the late 1970s through the 1990s, 
including the strengthening of the wetwell, inerting of containment 
during operations to prevent hydrogen explosions in the case of a core 
damage accident, and installing larger suction strainers for emergency 
cooling pumps.
    The NRC does not currently have sufficient information about how 
venting was, or was not, accomplished in Japan, thus we cannot yet 
provide a comparison between the United States approach to venting and 
the Japanese approach.
    Question. I am told that in the upcoming year, 2 of the 5 NRC 
Commissioners will be up for replacement. Given the events that have 
taken place over the past month, and the number of U.S. nuclear 
facilities that will need renewal licenses, can you please speak to the 
importance of having a full panel as the NRC moves forward to tackle 
these issues?
    Answer. Commissioner Ostendorff's current term will end on June 30, 
2011. He has been re-nominated by the President for a full-term; that 
nomination is currently with the Senate Environment and Public Works 
Committee for consideration. Because Commissioner's terms are 
staggered, the next term to end is Commissioner Svinicki's at the end 
of June 2012. The NRC is designed to be a collegial body of five 
responsible for policy formulation, rulemaking, adjudications, and 
adjudicatory orders. The diversity of experience, knowledge, and 
opinions among the Commissioners strengthens the formulation of agency 
policy and the execution of our critical mission.

                         CONCLUSION OF HEARING

    Senator Feinstein. So thank you gentlemen, very much, for 
the testimony. It is very helpful. And the hearing is recessed.
    [Whereupon, at 11:55 a.m., Wednesday, March 30, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
